<html>
<title> - JOINT HEARING ON: H.R. 3661, TO HELP ENSURE GENERAL AVIATION AIRCRAFT ACCESS TO FEDERAL LAND AND TO THE AIRSPACE OVER THAT LAND</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 JOINT HEARING ON H.R. 3661, TO HELP ENSURE GENERAL AVIATION AIRCRAFT 
                               ACCESS TO
            FEDERAL LAND AND TO THE AIRSPACE OVER THAT LAND

=======================================================================

                             JOINT HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                  and

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                                  and

                        SUBCOMMITTEE ON AVIATION

                                 of the

                      COMMITTEE ON TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                     APRIL 6, 2000, WASHINGTON, DC.

                               __________

                         Committee on Resources
                           Serial No. 106-89

                      Committee on Transportation
                           Serial No. 106-83

                               __________

           Printed for the use of the Committee on Resources

 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
67-552                     WASHINGTON : 2000


                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
james v. hansen, uTAH                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH-HAGE, Idaho          CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA MC CHRISTENSEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  JAY INSLEE, Washington
MARK E. SOUDER, Indiana              GRACE F. NAPOLITANO, California
GREG WALDEN, Oregon                  TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
MIKE SIMPSON, Idaho                  RUSH D. HOLT, New Jersey
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          CARLOS A. ROMERO-BARCELO, Puerto 
JOHN J. DUNCAN, Jr., Tennessee           Rico
JOEL HEFLEY, Colorado                NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
WALTER B. JONES, Jr., North          DONNA CHRISTIAN-CHRISTENSEN, 
    Carolina                             Virgin Islands
CHRIS CANNON, Utah                   RON KIND, Wisconsin
RICK HILL, Montana                   JAY INSLEE, Washington
JIM GIBBONS, Nevada                  TOM UDALL, New Mexico
MARK E. SOUDER, Indiana              MARK UDALL, Colorado
DON SHERWOOD, Pennsylvania           JOSEPH CROWLEY, New York
                                     RUSH D. HOLT, New Jersey
                        Allen Freemyer, Counsel
                     Todd Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel
                   Gary Griffith, Professional Staff
               Subcommittee on Forests and Forest Health

                 HELEN CHENOWETH-HAGE, Idaho, Chairman
JOHN J. DUNCAN, Jr., Tennessee       ADAM SMITH, Washington
JOHN T. DOOLITTLE, California        DALE E. KILDEE, Michigan
WAYNE T. GILCHREST, Maryland         OWEN B. PICKETT, Virginia
JOHN PETERSON, Pennsylvania          RON KIND, Wisconsin
RICK HILL, Montana                   GRACE F. NAPOLITANO, California
BOB SCHAFFER, Colorado               TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
                     Doug Crandall, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                  Jeff Petrich, Minority Chief Counsel
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BUD SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    JAMES L. OBERSTAR, Minnesota
THOMAS E. PETRI, Wisconsin           NICK J. RAHALL II, West Virginia
SHERWOOD L. BOEHLERT, New York       ROBERT A. BORSKI, Pennsylvania
HOWARD COBLE, North Carolina         WILLIAM O. LIPINSKI, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ROBERT E. WISE, Jr., West Virginia
THOMAS W. EWING, Illinois            JAMES A. TRAFICANT, Jr., Ohio
WAYNE T. GILCHREST, Maryland         PETER A. DeFAZIO, Oregon
STEPHEN HORN, California             BOB CLEMENT, Tennessee
BOB FRANKS, New Jersey               JERRY F. COSTELLO, Illinois
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, District of 
JACK QUINN, New York                     Columbia
TILLIE K. FOWLER, Florida            JERROLD NADLER, New York
VERNON J. EHLERS, Michigan           PAT DANNER, Missouri
SPENCER BACHUS, Alabama              ROBERT MENENDEZ, New Jersey
STEVEN C. LaTOURETTE, Ohio           CORRINE BROWN, Florida
SUE W. KELLY, New York               JAMES A. BARCIA, Michigan
RAY LaHOOD, Illinois                 BOB FILNER, California
RICHARD H. BAKER, Louisiana          EDDIE BERNICE JOHNSON, Texas
CHARLES F. BASS, New Hampshire       FRANK MASCARA, Pennsylvania
ROBERT W. NEY, Ohio                  GENE TAYLOR, Mississippi
JACK METCALF, Washington             JUANITA MILLENDER-McDONALD, 
EDWARD A. PEASE, Indiana                 California
ASA HUTCHINSON, Arkansas             ELIJAH E. CUMMINGS, Maryland
MERRILL COOK, Utah                   EARL BLUMENAUER, Oregon
JOHN COOKSEY, Lousiana               MAX SANDLIN, Texas
JOHN R. THUNE, South Dakota          ELLEN O. TAUSCHER, California
FRANK A. LoBIONDO, New Jersey        BILL PASCRELL, Jr., New Jersey
JERRY MORAN, Kansas                  LEONARD L. BOSWELL, Iowa
JOHN T. DOOLITTLE, California        JAMES P. McGOVERN, Massachusetts
LEE TERRY, Nebraska                  TIM HOLDEN, Pennsylvania
DON SHERWOOD, Pennsylvania           NICK LAMPSON, Texas
GARY G. MILLER, California           JOHN ELIAS BALDACCI, Maine
JOHN E. SWEENEY, New York            MARION BERRY, Arkansas
JIM DeMINT, South Carolina           RONNIE SHOWS, Mississippi
DOUG BEREUTER, Nebraska              BRIAN BAIRD, Washington
STEVEN T. KUYKENDALL, California     SHELLEY BERKLEY, Nevada
MICHAEL K. SIMPSON, Idaho
JOHNNY ISAKSON, Georgia
DAVID VITTER, Louisiana
MATTHEW G. MARTINEZ, California

                        SUBCOMMITTEE ON AVIATION

                JOHN J. DUNCAN, Jr., Tennessee, Chairman
JOHN E. SWEENEY, New York, Vice      WILLIAM O. LIPINSKI, Illinois
    Chairman                         JERRY F. COSTELLO, Illinois
DON YOUNG, Alaska                    CORRINE BROWN, Florida
THOMAS E. PETRI, Wisconsin           EDDIE BERNICE JOHNSON, Texas
THOMAS W. EWING, Illinois            JUANITA MILLENDER-McDONALD, 
JOHN L. MICA, Florida                    California
JACK QUINN, New York                 ELIJAH E. CUMMINGS, Maryland
VERNON J. EHLERS, Michigan           LEONARD L. BOSWELL, Iowa
SPENCER BACHUS, Alabama              JOHN ELIAS BALDACCI, Maine
RAY LaHOOD, Illinois                 MARION BERRY, Arkansas
CHARLES F. BASS, New Hampshire       ELEANOR HOLMES NORTON, District of 
JACK METCALF, Washington                 Columbia
EDWARD A. PEASE, Indiana             ROBERT MENENDEZ, New Jersey
ASA HUTCHINSON, Arkansas             ELLEN O. TAUSCHER, California
MERRILL COOK, Utah                   JAMES P. McGOVERN, Massachusetts
JOHN COOKSEY, Louisiana              NICK LAMPSON, Texas
JOHN R. THUNE, South Dakota          NICK J. RAHALL II, West Virginia
FRANK A. LoBIONDO, New Jersey        JAMES A. TRAFICANT, Jr., Ohio
JERRY MORAN, Kansas                  PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        PAT DANNER, Missouri
DON SHERWOOD, Pennsylvania           BOB FILNER, California
GARY G. MILLER, California           MAX SANDLIN, Texas
JIM DeMINT, South Carolina           TIM HOLDEN, Pennsylvania
STEVEN T. KUYKENDALL, California     JAMES L. OBERSTAR, Minnesota
MICHAEL K. SIMPSON, Idaho              (Ex Officio)
JOHNNY ISAKSON, Georgia
DAVID VITTER, Louisiana
BUD SHUSTER, Pennsylvania
  (Ex Officio)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held April, 6, 2000......................................     1

Statement of Members:
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     3

Statements of Witnesses:
    Alexander, David, Forest Supervisor of the Payette National 
      Forest, Department of Agriculture..........................    50
        Prepared statement of....................................    52
    Barrett, Robert, Director, UDOT Aeronautical Operations......     7
        Prepared statement of....................................    10
    Boyer, Phil, President, Aircraft Owners and Pilots 
      Association................................................    21
        Prepared statement of....................................    23
    Durtschi, Steve, President, Utah Back Country Pilots 
      Association................................................    29
        Prepared statement of....................................    32
    Shea, Pat, Deputy Assistant Secretary, Land and Minerals 
      Management, Department of the Interior.....................    59
        Prepared statement of....................................    61
    Welsh, Barton W., Aeronautics Administrator, Division of 
      Aeronautics, Idaho Transportation Department...............    15
        Prepared statement of....................................    17

 
 JOINT HEARING ON: H.R. 3661, TO HELP ENSURE GENERAL AVIATION AIRCRAFT 
       ACCESS TO FEDERAL LAND AND TO THE AIRSPACE OVER THAT LAND

                              ----------                              


                        THURSDAY, APRIL 6, 2000

                  House of Representatives,
  Subcommittee on National Parks and Public Lands, 
             Committee on Resources, joint with the
        Subcommittee on Forests and Forest Health, 
             Committee on Resources, joint with the
             Subcommittee on Aviation Committee on 
                 Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 1324, Longworth House Office Building, Washington, DC., 
Hon. James V. Hansen (chairman of the Subcommittee on National 
Parks and Public Lands) presiding.
    Mr. Hansen. The Subcommittee on National Parks and Public 
Lands is the committee that I chair, and with me is the 
gentleman from Tennessee who sits on this committee, but also 
chairs the Committee on FAA, and we are grateful to be 
together. We expect the Chairman from the Forests and Forest 
Health will be with us and also the Chairman from Agriculture. 
They have both indicated a willingness to be here in support of 
this piece of legislation.
    Today we will hear testimony on H.R. 3661. This is a bill I 
introduced, which ensures general aviation access to back 
country airstrips by establishing a nationwide policy for 
governing airstrips on Federal land and assuring that they 
cannot be closed until a public process has been completed and 
approval given by the FAA and State Aviation Boards.
    Without question, back country airstrips serve the public 
in a variety of beneficial ways. One of these is the role they 
play in public safety. Pilots across the country feel more at 
ease and breathe easier knowing that these airstrips are out 
there in case of an emergency. Furthermore, back country 
airstrips are also used in search and rescue activities and 
firefighting efforts, as well as provide areas for disabled 
aircraft to land. These airstrips also have general aviation 
purposes which allow those who otherwise would be physically 
unable to enjoy and recreate on our vast public lands.
    Currently, many of our back country airstrips are being 
closed or becoming unserviceable. This is mainly due to the 
unilateral action of Federal agencies. H.R. 3661 would change 
this by requiring the Secretary of the Interior and the 
Secretary of Agriculture to consult with the FAA, to adopt a 
binding nationwide policy to govern aviation on Federal lands. 
This bill contains provisions to prevent action or inaction 
that would close or leave an airstrip unserviceable without 
giving notice to the Federal Register, to the FAA, and to the 
public.
    I want to add that there seems to be some concern over who 
is to maintain the strips. The Federal agencies think that this 
maintenance would add a significant burden on them. However, 
the bill specifies that the Interior and Agriculture 
Departments only must consult with the State Board of Aviation 
and other interested parties to ensure landing strips are 
maintained. Many of the pilot associations that I have talked 
to made it clear they will volunteer to maintain and make small 
necessary improvements to these back country airstrips. I do, 
and the Federal Government should also, thank them for this 
volunteer offer and the effort that they have put forth.
    Before we begin the hearing, I need to say one more thing, 
and I want to be very clear. The committee rules calls for all 
testimony, including that of the Administration, to be 
delivered 48 hours in advance of a hearing, not 48 minutes. 
This situation is getting the Administration's testimony at the 
last minute is simply intolerable, and I have already canceled 
a number of hearings because of this tardiness, and that is the 
rule of the House. And therefore, I will take this first panel, 
rather than the Administration, and bring them on second.
    Having said that, I would like to turn to the gentleman 
from Tennessee, the Chairman of the FAA Subcommittee, and then 
I will turn to the gentlelady from Idaho for their opening 
comments, and then Mr. Sweeney.
    [Prepared statement of Mr. Hansen follows:]

    [GRAPHIC] [TIFF OMITTED] T7552.001
    
    Mr. Duncan. Thank you very much, Chairman Hansen. It is a 
great honor and privilege for me, as the Chairman of the 
Aviation Subcommittee of the Transportation and Infrastructure 
Committee, to participate with you and my good friend, Ms. 
Chenoweth-Hage, in this hearing today. I am fortunate to have 
the opportunity to serve on both the Resources Committee and as 
Chairman of the Aviation Subcommittee. This gives me an 
opportunity to see this issue from several different 
perspectives.
    This is not the first time that our two committees, 
Chairman Hansen, have held a joint hearing. In November 1997, 
Chairman Hansen and I conducted a joint hearing in St. George, 
Utah, on the issue of the National Park Overflights, 
particularly, flights over the Grand Canyon. That hearing led 
to the introduction of the National Parks Air Management Act, 
which was passed by the House and was put in our FAA 
Reauthorization Bill, which the President signed into law 
yesterday.
    On the Aviation Subcommittee, we have been concerned about 
general aviation airports for several years. In 1998, we asked 
the General Accounting Office to look into what the FAA was 
doing to preserve the general aviation access, and some people 
felt that they were not doing nearly enough at that time. As a 
result, we held a hearing last June on the need to preserve 
general aviation airports. We learned at that hearing that 
general aviation airports have been closing over the last 25 
years at a disturbing rate of one a week. It is hard to 
imagine, but that is what the statistics show, that over the 
last 25 years, general aviation airports have been closing at 
the rate of one a week.
    In the recently passed Air 21 legislation, we included a 
section requiring the FAA to give pilots advanced notice before 
airports are allowed to close down or to sell off their land. 
This will give airport users an opportunity to comment before 
they lose such a valuable resource. Of course, Air 21 applies 
only to airports owned and operated by state or local agencies. 
It does not cover airstrips that are owned by the Federal 
Government and located on Federal land.
    The General Aviation Access Act, which Chairman Hansen 
introduced, and which I co-sponsored, is basically designed to 
do for Federal airstrips what Air 21 does for state and local 
airfields. It would give pilots and other users an opportunity 
to be heard before the landing site is closed or taken away 
from them. And I should emphasize that. This does not prohibit 
action being taken by a Federal agency, it simply gives pilots 
and other users an opportunity to be heard and to have some 
input before such action can be taken.
    These landing strips serve several important functions. 
They can be used as a base of operations for search and rescue 
missions, firefighting, and aerial landing. More important, 
they can provide a safe landing site for pilots in times of 
trouble. I am aware that the Interior Department and the FAA 
may have some concerns about this bill. I am certainly willing 
to hear them out and support any modifications to the 
legislation and would approve it.
    And I want to thank Chairman Hansen for taking the 
initiative on this issue and for allowing the Aviation 
Subcommittee to participate, and say that Chairman Hansen may 
not be the most famous Member of Congress, although he is well 
known. But I will tell you that I, personally, do not believe I 
know of any member of the House of Representatives who is more 
highly respected than my good friend, Chairman Hansen, and it 
is a pleasure to follow your lead on this and many other 
things. And I thank you very much for allowing me to be here 
today.
    Mr. Hansen. Well, I thank you for those kinds words. We 
appreciate your testimony. We will turn to the gentlelady from 
Idaho, the Chairman of the Committee on Forests and Forest 
Health.
    Ms. Chenoweth-Hage. I want to thank the Chairman, and I 
also agree with Mr. Duncan. I think probably Mr. Hansen is one 
of the more famous members of the House. I love to embarrass 
him.
    But I do want to say that ensuring access to our back 
country airstrips is of real extreme importance to me. Two 
years ago, I held an oversight hearing on the Forest Service 
management of back country airstrips; primarily, those in and 
around the Frank Church River of No Return Wilderness Area in 
Idaho. The Frank Church Wilderness Area was and is a good case 
study on the back country airstrip issue that we are addressing 
today.
    When the Frank Church Wilderness Area was created, Congress 
included language in the legislation that required the Forest 
Service to keep open and maintain the airstrips within the 
wilderness. To quote Senator Frank Church, ``Because of the 
vastness of the River of No Return area, without continued 
access by air, very few people could see and enjoy the remote 
and less accessible parts of the region.''
    Unfortunately, a few years ago, the Forest Service began 
moving in a direction contrary to this legislation and the 
intent of Congress, which was and is to maintain the 
established uses of airstrips. Various Forest Service proposals 
would have led to a decrease in the maintenance of the 
airstrips, and as a result, a reduction in the total number of 
functioning airstrips. Since the hearing, I have been told that 
the Forest Service has proceeded with a more heightened 
sensitivity concerning the intent of Congress. And although a 
number of issues still remain unresolved, I really appreciate 
Congress Hansen's bill, H.R. 3661, which will help to further 
ensure that the back country airstrips in the Frank Church 
Wilderness and across the country will remain open and 
functioning.
    This issue is such an important one to me, as so many in 
the west, recreationalists, pilots, disabled people, search and 
rescue teams, firefighters, and others. Two days ago, I held a 
hearing on the effects of new Forest Service rulemaking and 
policies on recreation in the National Forest. From mountain 
bikers, horsemen, snowmobilers, alike, we heard the same story. 
This Administration is locking the public out of our public 
lands. Hopefully, efforts such as Mr. Hansen's will help keep 
back country airstrips from just being another pod in the 
Administration's plans to lock up the Federal lands.
    Mr. Chairman, I want to welcome Mr. Dave Alexander. I am 
very pleased that he is here and part of the witnesses. In 
checking his testimony which we just got in, I notice that Mr. 
Alexander constantly referred to the need to allow managers the 
flexibility to make decisions locally, and I agree with this 
very strongly. The problem is, as we have recently uncovered, 
is that this Administration is already making local decisions 
from Washington, DC. with the guidance and assistance of 
national environmental groups.
    Now, I would prefer not to move legislation that would give 
more authority on the national level, and leave it on the local 
level. But if this is the only way to keep the Administration 
from shutting off access to Federal lands, then I must support 
this bill. Thank you, Mr. Chairman.
    Mr. Hansen. I thank the Chairlady from Idaho. The gentleman 
from Puerto Rico.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman. I would like 
to begin by welcoming our colleagues from the Forest and 
Aviation Subcommittees, and we look forward to the protectives 
regarding the legislation that we are going to consider today. 
The only matter before us today is this legislation introduced 
by Chairman Hansen, H.R. 3661. As we understand it, the intent 
of the legislation is to ensure access for private planes for 
back country areas owned and managed by the National Parks 
Service, Forest Service, and the Bureau of Land Management.
    The legislation attempts to accomplish this by passing 
these Federal land management agencies with undertaking 
maintenance on all airstrips located on Federal lands. In 
addition, the bill prohibits these agencies from taking steps 
to close an airstrip without FAA and state approval, as well as 
the 90-day notice and comment period. Presently, the bill 
prohibits these agencies from allowing these airstrips to 
become unserviceable through inaction or neglect.
    And finally, the bill contemplates development of a 
national policy which would govern not just airstrips, but all 
general aviation issues regarding public lands. While we surely 
agree that access to back country areas is vital, the need for 
this specific measure is unclear. We are unaware of any 
evidence of appropriate access to Federal lands as being denied 
to private pilots, nor are we aware of any evidence that the 
search and rescue, firefighting, or other emergency services 
are being hampered by current practices.
    Furthermore, we have serious concerns regarding the 
implementation of this legislation. No inventory of landing 
strips on Federal land exists. This legislation does not define 
the term, the scope of the bill is difficult to modify. In 
addition, the bill provides no clear standards for maintenance 
to guide the agencies in their new role. Will they be required 
to keep these strips to FAA standards or does some lesser 
standard exist?
    It is also unclear how the agencies might comply with the 
bill's prohibition of inaction or neglect. For example, how 
could an agency provide 90 days notice on a common field before 
failing to act? Finally, it is unclear how this legislation, 
including the new national policy of mandates, would match with 
existing policies governing land management and related general 
aviation issues.
    I will look forward to the testimony of our witnesses 
today, and it is our hope that their insight might clear up 
some of the concerns that we have expressed.
    Mr. Hansen. I thank the gentleman for his comment. Is there 
any member of the three committees that are involved in this 
particular piece of legislation that have an opening comment or 
a burning in your bosom, you have just got to get it out? If 
not, why do not we go ahead with this hearing.
    Our panel that we have with us, our first panel, Mr. Robert 
Barrett, Director of UDOT, Utah Department of Transportation 
Aeronautical Operations; Mr. Barton W. Welsh, Aeronautics 
Administrator, Division of Aeronautics, Idaho Transportation 
Department; Mr. Phil Boyer, President of the Aircraft Owners 
and Pilots Association--and incidentally, Mr. Boyer was the 
driving force of the tort liability issue which I think has 
kind of salvaged things like general aviation--and my good 
friend and neighbor, Mr. Steve Durtschi, President of the Utah 
Back Country Pilots Association, which is a good group of 
individuals who have done an outstanding job for aviation in 
the State of Utah.
    Mr. Barrett, we will start with you, sir.

   STATEMENTS OF ROBERT BARRETT, DIRECTOR, UDOT AERONAUTICAL 
    OPERATIONS; ACCOMPANIED BY BARTON W. WELSH, AERONAUTICS 
 ADMINISTRATOR, DIVISION OF AERONAUTICS, IDAHO TRANSPORTATION 
 DEPARTMENT; PHIL BOYER, PRESIDENT, AIRCRAFT OWNERS AND PILOTS 
   ASSOCIATION; STEVE DURTSCHI, PRESIDENT, UTAH BACK COUNTRY 
                       PILOTS ASSOCIATION

                  STATEMENT OF ROBERT BARRETT

    Mr. Barrett. Mr. Chairman and members of the subcommittee, 
my name is Robert Barrett. I am the Director of the Utah 
Division of Aeronautics, a division of the Utah Department of 
Transportation. I have come to testify before this subcommittee 
and to present a printed statement for inclusion in the 
congressional record in behalf of H.R. 3661, the General 
Aviation Access Act.
    My division administers all Federal and state funding for 
public-use airports in Utah. We are responsible for all 
aviation-based transportation issues. In addition, we operate 
three airplanes to provide air transportation to state 
government officials and employees who travel on the state's 
business. We frequently take our passengers over the most 
spectacular scenery that exists anywhere in this great country 
of ours and, in fact, in the entire world.
    The frequent oohs and aahs of our passengers remind us of 
the beauty and drive home to us how truly fortunate we are to 
fly in such an area. John Gillespie Magee's beloved poem 
entitled, High Flight, comes to mind, for there is no other 
place in my experience where one can so readily reach out and 
``touch the face of God.''
    The General Aviation Access Act is very important to all 
who fly over Utah and other western states where vast areas are 
designated as mountainous terrain, where airports are few and 
population is sparse. In Utah, the uranium boom days of the 
1950's and 1960's left their mark in numerous landing strips 
bladed out in the canyons and river bottoms and on remote mesa 
tops which were there to resupply prospectors. These are 
unimproved dirt strips, 1,000 to 2,000 feet long, with no 
associated roads, no instrument approaches, no runway lights, 
no services, no based airplanes and no people.
    On the Utah Aeronautical Charts, which I have provided as 
Exhibit 1, you will find many of these strips designated by a 
small circle or by an R with a circle around it. These 
airstrips are very important. They represent a safe haven to a 
pilot faced with a sudden engine failure in a single engine 
aircraft or an emergency that requires getting the airplane on 
the ground right now. Our last revision to the State 
Aeronautical Chart and the airport directory on the reverse 
side began to identify some of these landing strips so the 
pilots will have enough information to land safely in 
emergencies. Such emergencies do not happen often, but when 
they do, the pilot needs a place to get down. These back 
country strips serve an essential safety role as emergency 
landing areas.
    These strips serve a recreational purpose as well. You will 
hear others testify how these back country strips make 
accessible to the disabled and others the unparalleled beauties 
of the remote wilderness that I described.
    I will now address two specific issues that have been 
raised by environmental interest groups opposed to passage of 
H.R. 3661. First, the allegation has been made that these 
landing strips would become the regular destinations of the 
aircraft of the drug cartels and their deadly cargo. Not so. 
These landing strips so welcome to a pilot in distress are not 
suitable for the largely multi-engine and turboprop aircraft 
which are the preference of drug runners. While they have shown 
a penchant for throwing away an expensive aircraft on a one-way 
trip, they have not extended this to throwing away pilots. 
Taking a twin-engine turboprop into a 1,200 foot sand and 
sagebrush runway in a box canyon at night would be a recipe for 
a serious crash landing at best, and more likely, a sure 
fatality for all aboard. And since most of these strips are 
many miles from the nearest road, transporting any significant 
volume of drugs would be difficult.
    Secondly, those opposed to any use of these landing strips 
have alleged that each would become a busy weekend destination 
for hordes of private pilots who would turn the wilderness into 
vast public campgrounds. This is not going to happen. These 
strips will never be the destination of more than a handful of 
skilled and experienced pilots who own aircraft designed and 
built to fly into unimproved strips and rough terrain. The 
average recreational flyer has neither the training nor the 
skill, nor access to the right aircraft, to fly into these 
strips. Each strip would likely see no more than one or two 
aircraft in any given week.
    Now, the actions that my division would propose if H.R. 
3661 becomes law: First, I would pledge to work with the BLM 
and the Forest Service, and with the FAA, the Utah Back Country 
Pilots Association, and various environmental interest groups, 
and other potential users to decide which back country strips 
are essential to the safety of general aviation and other 
appropriate recreation and utilitarian needs. We would develop 
a plan to release those that are not needed and allow them to 
be returned to natural wilderness.
    No use of Federal AIP funds nor state appropriated airport 
construction and maintenance funds would be used for the 
restoration or preservation of back country airstrips. We would 
enlist the aid of the back country pilots and other private 
citizen groups to adopt an airstrip and to take responsibility 
for the restoration and upkeep of those which are designated 
for preservation.
    I would conclude by saying that H.R. 3661 is a good bill 
and that its passage would provide long-term benefits to our 
citizens and visitors from other countries. The cost and 
detrimental effects of its passage would be so small as to be 
immeasurable. I recommend to the subcommittee its favorable 
recommendation to the House and its strong support for passage 
by the Senate and the President.
    I thank you for the opportunity you have given me to come 
and speak.
    [Prepared statement of Mr. Barrett follows:]

    [GRAPHIC] [TIFF OMITTED] T7552.002
    
    [GRAPHIC] [TIFF OMITTED] T7552.003
    
    [GRAPHIC] [TIFF OMITTED] T7552.004
    
    [GRAPHIC] [TIFF OMITTED] T7552.005
    
    [GRAPHIC] [TIFF OMITTED] T7552.006
    
    Mr. Hansen. Thank you, Mr. Barrett. Mr. Welsh, we will turn 
to you, sir. If you would pull that mike up close to you, we 
would appreciate it.

                  STATEMENT OF BARTON W. WELSH

    Mr. Welsh. Thank you. Ladies and gentlemen, thank you so 
much for the opportunity to comment on H.R. 3661, the bill to 
help ensure general aviation aircraft access to Federal lands 
and the airspace over that land.
    The State of Idaho has a number of state and federally 
owned aircraft landing strips. Idaho is known nationwide for 
its air access to wilderness and primitive areas. Each of these 
strips is considered by us to be an irreplaceable state and 
national treasure. The reality today is that if any of these 
strips were lost, they could not be replaced because of the 
language of existing wilderness legislation.
    When the Frank Church Wilderness was established in Idaho, 
it incorporated a provision to provide for the continued 
operation of all existing landing strips. The provision states 
that existing landing strips may not be closed permanently or 
rendered unserviceable without the written consent of the State 
of Idaho. Over the years, this stipulation has proved a very 
satisfactory working relationship between the personnel from 
the Forest Service and incorporated their staff with the 
Division of Aeronautics and other interested parties to work 
out solutions that would have been very difficult.
    I would like to share two of these with you today. One is a 
landing strip known as Wilson Bar. This strip is on the Salmon 
River and has been a landing strip for many years. It was 
originally built by a miner some time in the late 1930's or 
early 1940's. The first airplane to ever land there landed in a 
meadow as a true emergency when the aircraft had engine 
difficulties. Realizing the value of this, the owner of the 
mining claim improved the strip and made it available to other 
pilots to conduct business with him and access that particular 
area. There was at the time no other airstrip along that 
portion of the river.
    Over time the strip became somewhat overgrown with trees 
and shrubbery and was being used less and less. In 1994, the 
local pilots in Idaho began to use the landing strip for 
recreational purposes for access to that area and wished to 
improve it for potential emergency. Some Forest Service 
representatives felt that since the airport had seen infrequent 
use for many years, it might be best left closed. Because of 
the language in the Frank Church Wilderness Act, the situation 
was looked at with legal interpretations and it was felt that 
the airport was protected by the Act and should remain open to 
all aircraft operations.
    With that, there was a cooperative effort between the 
Forest Service and the local pilots to remove the necessary 
trees, put the airstrip back into a usable condition. The 
airstrip is open today and is used by a number of people, and 
is an example of my opinion of the type of cooperation that 
this Act brought about.
    The second example is a landing strip on Big Creek, known 
as Cabin Creek airstrip. This strip was badly damaged by a 
flood in 1997. A small tributary known as Cow Creek, just above 
the airstrip, overran its bank in the spring runoff and the 
water traveled virtually the length of the dirt strip, doing a 
large amount of damage. Again, the Forest Service and the local 
pilots association, along with the Idaho Aviation Division, met 
to deal with the situation. This was unique in that it was 
wilderness where there was an agreement no mechanized equipment 
may be used. Although the Act does not allow for mechanized 
equipment, it does allow for mechanized equipment to be used in 
extreme situations.
    It was felt that bringing tractors and bulldozers in the 
area might be viewed by some individuals as compromising the 
wilderness values. It was agreed the airstrip should be 
repaired with mules and drawbars. The financial needs were 
addressed by the Forest Service and the project did take place 
and the strip is now open.
    I point these two examples as opportunities that without 
restriction to the Act, these two strips would surely have been 
lost forever. The language in H.R. 3661 is virtually the same 
as we have found successful in the Frank Church Act, protecting 
all landing strips in the wilderness area.
    I would be remiss if I did not mention one particular 
person that works for the Forest Service, who was mentioned 
already today, Mr. Dave Alexander, the Forest Supervisor for 
the Payette National Forest. Mr. Alexander has consistently 
taken a cooperative position where areas that we work together. 
We have seen the value of aviation and realize the importance 
of the back country strips. These strips allow people to have 
access to areas that would not be otherwise possible. The 
aircraft do not damage in any way the terrain, they do not 
wander off the given path in the woods, there is no damage to 
the process of getting there. They do not break down the trails 
and cut across small corners to cause erosion. The aircraft 
simply go to one place. It is an essential part of the 
Wilderness Act.
    Aircraft for the State of Idaho are a very important 
economic consideration. We have a number of air taxis that 
provide access for recreation and administrative purposes. 
Examples of people accessing the wilderness by air are hunters, 
fishermen, rafters, forest service, law enforcement. I would 
like to repeat again that all back country wilderness strips in 
Idaho or any other state in the Nation are an irreplaceable 
asset, that it would be irresponsible for us not to protect 
them. This Act does exactly that.
    I would strongly support your supporting this act and I 
would be happy and delighted to any questions the committee 
might have. Thank you.
    [Prepared statement of Mr. Welsh follows:]
    [GRAPHIC] [TIFF OMITTED] T7552.007
    
    [GRAPHIC] [TIFF OMITTED] T7552.008
    
    [GRAPHIC] [TIFF OMITTED] T7552.009
    
    [GRAPHIC] [TIFF OMITTED] T7552.010
    
    Mr. Hansen. Thank you, Mr. Welsh. Mr. Boyer.

                    STATEMENT OF PHIL BOYER

    Mr. Boyer. Thank you, Mr. Chairman. As you know, I 
represent the Aircraft Owners and Pilots Association, almost 
360,000 of our nation's pilots and about 110,000 owners of 
general aviation airplanes who use these particular strips for 
both recreation and/or business use. Primarily, our members, 
well trained, as you heard earlier, fly in the western states 
at many of these airports. But as a national organization, I 
would like to describe just a bit the fact that it is not 
isolated to just the states represented at this table. There 
are airport closures or airports under threat of closure in the 
back country area in states like Oregon, California. And in my 
written testimony, I have given you a list of those airports 
that we are currently trying to save.
    At the same time, let me take you to the 49th state, up in 
Alaska, where Mt. McKinley Airport, a critical airport in terms 
of safety, in terms of a single-engine plane losing an engine, 
has been under threat of attack for about the last two to 3 
years. Though every case is different, we at AOPA feel that 
proposals to restrict aviation access to federally managed 
lands are generally inappropriate.
    General aviation pilots, my members, do not seek to hinder 
the experience of anyone taking advantage of the recreational 
opportunities in these parks, in these forests, or these 
wilderness areas. As a matter of fact, most GA pilots fly over 
or land in these areas because they share this same 
appreciation for the environment. As part of our members' 
efforts to preserve the experience of ground visitors, we have 
encouraged and we know that our members successfully use a 
voluntary overflight minimum of 2,000 feet whenever going over 
any of these federally or state-managed lands.
    General aviation contributes positively to the recreational 
experience. You know, our pilots do not leave behind clutter, 
clogged roads, or physical damage at the area. As a matter of 
fact, you will hear that pilots actually help to improve these 
areas. And compared to other sources of noise and disturbance 
that visitors may experience in national parks, forests, and 
wilderness area, aviation brings very little noise. But we do 
need these strips also for emergency use as you have already 
heard.
    We also do not create the noise that recreational vehicles, 
buses, motorcycles and others use. If I could take just a 
moment and give you a little home video that I shot when I was 
in one of our national parks just last September. Enjoy the 
serenity, the beauty of Yellowstone National Park, for 
instance. By the way, I drove. And looking at scenes like this, 
once again, airplanes flying 2,000 feet or more above the 
airport not being heard; but suddenly, in the parking lot, just 
steps away from that scene I was showing you--I could not help 
but say, ``and they worry about airplane noise over national 
parks.'' At any rate, aviation provides those physically 
unable, as you heard, to enjoy the pleasures of our national 
parks.
    You know, as with any restrictions, limits on access by 
aircraft should be justified by hard data, such as a record of 
frequent complaints by wilderness users, not simply the 
perceptions of a few activists. I have testified in Chairman 
Duncan's committee about many calls that are received at our 
domestic, regular urban airports. Most of these calls boil down 
to three or four people who are complaining, even though they 
may log 100 or so calls each. Studies, and they are in my 
written testimony, have shown that airplanes do not impair the 
national park visitors, affect the quality of their experience.
    And once again, back country airports are so vital for the 
emergency use of airplanes. There are about 195,000 active 
civil aviation airplanes in the U.S.; 135,000 fly with a single 
engine. Now, if the single engine fails, those of us who are 
pilots all know, we become a glider pilot. And generally, in 
states like this, or anywhere in the eastern part of the 
country, in much of the country, we can glide the landing in a 
field or find an airstrip nearby. But that is not the case, as 
a matter of fact, when you are over states represented here 
like Idaho and Utah, or some of the other states where these 
back country airports exist.
    I would like to demonstrate for you a trip that I took to 
Idaho, as a matter of fact, just a few years ago; a wonderful 
trip in which we were going to use a single-engine airplane to 
fly around in this kind of rugged terrain. I think it might be 
good for the committee to also look at the kind of airstrip we 
are talking about here. This is not one with a huge terminal, 
with large facilities, with parking facilities, et cetera. This 
is truly an approach to Thomas Creek, one of the back country 
airstrips we are talking about.
    Well, when we landed, we suddenly discovered that a group 
of people down at the far end of that runway were going to need 
our help. Why? Because one of these charter aircraft that we 
described earlier, that carries passengers for hire, lost its 
engine over that rugged terrain with passengers on board. Just 
about an hour before our arrival, it had glided to a safe 
landing--wonderful pilot skills, I might say--and actually went 
off the road that abuts to that small airport. And this is a 
picture of us pushing that airplane out. All the passengers, 
the pilot, and everyone walked away from that accident. What 
would have happened had that back country airport not been 
there to use when this plane had actually one of its cylinders 
go through the side of the engine?
    I would like you to refer to my written testimony for the 
remainder, but I would like to say that we encourage support of 
this general aviation access bill. You have correctly 
identified that there is an agency in this country that is 
responsible for our airspace, that is the Federal Aviation 
Administration. This bill does not take away from their 
authority over airspace, but it also involves local community, 
states, to participate in the process, and we support that in a 
big way. We believe this is a reasonable approach to a problem 
that continues to exist with our nation's back country 
airports.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Boyer follows:]
    [GRAPHIC] [TIFF OMITTED] T7552.011
    
    [GRAPHIC] [TIFF OMITTED] T7552.012
    
    [GRAPHIC] [TIFF OMITTED] T7552.013
    
    [GRAPHIC] [TIFF OMITTED] T7552.014
    
    [GRAPHIC] [TIFF OMITTED] T7552.015
    
    [GRAPHIC] [TIFF OMITTED] T7552.016
    
    Mr. Hansen. Thank you, Mr. Boyer. We have a lot of folks 
standing. We are not going to use this bottom tier. If you want 
to come up and sit in it, you are welcome to do it. If you do 
not find that too intimidating, come on up.
    Ms. Norton. Thank you, Mr. Chairman. These are students 
from Calvin Coolidge High School in the District of Columbia, 
here to learn about the Congress of the United States.
    Mr. Hansen. Well, I am glad they could be with us today, 
Ms. Norton, and we are happy to have them join us.
    Our last witness on this panel is Mr. Steve Durtschi from 
Centerville, Utah, an adjoining town of my town of Farmington. 
Mr. Durtschi, it is a pleasure to see you again, sir, and we 
will turn the time to you.

                  STATEMENT OF STEVE DURTSCHI

    Mr. Durtschi. Good morning. I appreciate the opportunity to 
address this committee. My name is Steve Durtschi. I work as a 
Process Engineer on solid rocket propellants for a defense 
contractor in Salt Lake City. I am also a commercial and 
instrument-rated pilot.
    I am here today representing the Utah Back Country Pilots 
Association. The UBCP has a membership of 325 pilots and 
enthusiasts in Utah and surrounding states. Our mission 
statement is to firstly promote air safety. We also serve as a 
volunteer group in maintaining and enhancing the safety at more 
remote airports. Many of the thoughts which I present here 
today are those suggested as I canvassed our group in preparing 
this testimony.
    I wish I could convey in just a few minutes, the time 
allotted to me, the passion for and enjoyment my family and I 
have realized over the years in being able to access some of 
the scenic beauty of the west in our airplane. If we won a trip 
to Disneyland today, we would most certainly trade it for one 
night in our tent under the wing after burnt hamburger and 
semi-raw potatoes cooked in tin foil. We have been most 
fortunate in being able to roll our wheels from manicured grass 
strips in the mountains to dusty runways in red rock canyons.
    Idaho has some two dozen of these landing strips in 
wilderness areas alone. The Frank Church River of No Return and 
the Selway-Bitterroot Wilderness areas both contain public 
landing strips open to private airplanes. Many of these are 
maintained in safe operating condition by public volunteers. 
This area of Idaho has become a show place for the nation, 
demonstrating how some of the most sensitive lands in the west 
can be managed in pristine condition for hundreds of 
generations and yet still allow public access.
    The deserts and canyon country of Utah also contain a 
handful of airports that beckon the back country aviator. Our 
Director of state Aeronautics, Mr. Barrett, has spoken of their 
obvious value for search and rescue efforts and the peace of 
mind the cross-country traveler feels as they quietly slide 
under the wing during a long trip in otherwise very unfriendly 
airplane terrain. To me and many other pilots, they are a 
treasure; a resource to our state, and deserve defending.
    Unfortunately, these landing strips are under attack. As an 
example, many of my friends and I used the landing strip at 
Taylor Flat on the Green River. There were no complaints 
concerning its use. In 1997, a sign was posted at the entrance 
to the strip that said, in part, ``Due to lack of interest and 
a qualified applicant to maintain the strip, the Taylor Flat 
Landing Strip is closed.'' Daggett County officials notified 
the BLM they would immediately perform any required maintenance 
on the landing strip and would maintain any required liability 
insurance. The Utah pilots group supplied data to show there 
was hardly a lack of interest in this strip and that it was 
being used and had been used by many people.
    The BLM conducted an Environmental Impact Statement and 
found no significant impacts. During the public comment period, 
to my knowledge, not one dissenting letter was registered with 
the BLM, while dozens were sent desiring to keep the strip 
open. The BLM supervisor denied all requests to use the 
airfield, citing his desire to not sacrifice five acres os sage 
brush. A grader was dispatched and several deep gouges cut, 
rendering the strip useless.
    With slight variation, the story has been the same at other 
Utah locations. With no advance notice, the BLM used heavy 
equipment to drag logs across the landing field at Dolores 
Point. The Mexican Mountain Landing Strip, now inside the 
Mexican Mountain Wilderness Study Area, has been continuously 
used by pilots since it was constructed in 1960. The U.S. 
Department of Interior's own pamphlet, entitled, Protecting 
Your Wilderness Study Areas, says that any activities conducted 
prior to the passage of the Federal land Policy Management Act 
of 1976 are grandfathered and allowed to continue. But the BLM 
has indicated they will cite any pilot now using the landing 
strip. I should mention, I have no axe to grind with the BLM. I 
believe they are responding to a few vocal environmentalist 
groups, and I emphasize that point.
    Attacks on Utah landing strips come from other camps. In 
1999, after resolving every potential issue over a period of 
almost 2 years, the BLM Environmental Impact Statements found 
no significant impact and issued a right of way lease for the 
landing strip at Mineral Canyon. Extremist groups immediately 
filed lawsuits, which persist from every legal angle to this 
day, even though the airport is not on what even they consider 
to be lands with wilderness character. I could cite similar 
attacks on airport closures in California and Idaho.
    I mentioned earlier my passion for flight and what a great 
privilege it is to combine this with my love of the outdoors. 
Aviation has been a source of national pride for nearly a 
century. Aviation has been the currency with which we purchased 
our technological dominance. My heroes are Jimmy Dolittle, Neil 
Armstrong and Roscoe Turner. My love for aviation is interwoven 
with the basic desire all share to be in open space. The 
freedom to move about unencumbered is irresistible, and I 
treasure it equally. I recently read that after a 10-year 
review, a man in Shanghai, the People's Republic of China, was 
issued a private pilot's license. This brings the total private 
pilots in China to 41. It is little wonder there is a 
difference between our two countries.
    I consider the airplane to be well-suited to visit 
sensitive lands. Consider that it does not leave a rutted 
landscape, nor does it graze its way from place to place. Only 
footprints leave the airfield. A few years ago, we were camped 
at Chamberlain Basin near the Salmon River in Idaho. The early 
morning silence was broken by a Cessna 206, followed by 
another, and then another. As I watched curiously, about 12 
young people were unloaded and helped into wheelchairs. For 
perhaps an hour, they had their own wilderness experience, some 
blowing into tubes to maneuver their chairs on the runway. 
These youngsters could have visited this wilderness in no other 
way. I later learned the airplanes were flown by volunteers.
    H.R. 3661 will preserve this privilege to visit the back 
country. We are bound as pilots by Federal Air Regulations any 
time we operate an airplane at these fields. Why not give these 
airports the Federal protection they deserve?
    A key ingredient to this bill is the public involvement it 
fosters. As a recently initiated couple to the political 
process, my wife and I are proud to represent our neighbors at 
the county convention in April. Our party platform reads in 
part, ``We believe that citizens' needs are best met through 
private initiative and volunteerism.''
    The Utah Back Country Pilots could not agree more. We do 
not believe in entitlements. As pilots who love the outdoors, 
the government does not owe us a thing. We simply ask that they 
mandate some guidelines and then politely step aside. Many 
groups such as ours ask only for the opportunity to roll up 
their sleeves, put their talents and wallets where their hearts 
are. This bill will allow just that. The public is at the ready 
to adopt these landing strips and maintain them in safe 
operating condition. The State of Idaho has a program similar 
to this that has operated for years.
    The Utah Back Country Pilots Association supports H.R. 
3661. As I have shown, the laws governing these landing strips 
at present are inadequate and open to individual interpretation 
by many agencies. This bill will bring these strips all under 
one management team. It is a rational and sensible way to 
manage airports on public lands. I sincerely hope this 
committee will thoughtfully consider this matter and expedite 
signing it into law. Thank you.
    [Prepared statement of Mr. Durtschi follows:]

    [GRAPHIC] [TIFF OMITTED] T7552.017
    
    [GRAPHIC] [TIFF OMITTED] T7552.018
    
    [GRAPHIC] [TIFF OMITTED] T7552.019
    
    Mr. Hansen. Thank you, Mr. Durtschi. Questions for this 
panel, the Chairman of the Aviation Committee, Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman. Let me just 
first ask the panel, one of government witnesses later implies 
or testifies that a great deal of confusion, almost near chaos, 
will result because the words, landing strip, or what the 
landing strip is, is not defined in this bill. He spends a 
great deal of time in his testimony concerning that. Although I 
know the Park Service currently uses the words, landing sites, 
are in its management policy, and the aircraft landing strips 
in its regulations.
    Do any of you feel there is uncertainty or confusion about 
what we are talking about here or what the words, landing 
strip, means in this legislation?
    Mr. Barrett. Mr. Duncan, there certainly is no confusion 
among pilots as to what it means. Those pilots who would use 
the back country strips, either for emergencies or for 
recreation, have no doubt in their minds what is implied by the 
words, landing strip. They are unimproved and there are no 
services available. There are usually no roads available, and 
it is a safe place to put their plane down in an emergency.
    Mr. Duncan. I guess I would not have been as concerned 
about that if there was not so much of his testimony spent on 
that point. Mr. Durtschi, do you think there is any confusion?
    Mr. Durtschi. No, not at all. In fact, our pilots group 
over the last 3 years has inventoried what we consider to be 
all of the landing strips in Utah. We have data on these, we 
have photographs, we have mapped them and charted them, 
measured their length, and described their condition. I believe 
they are all inventoried. I think one of the key ingredients of 
the bill will be it involves the public in deciding which ones 
now do we manage, which ones do we save.
    Mr. Duncan. I might suggest, if you have not done so, that 
you provide that to the government agencies involved. But let 
me ask you this, the witness from the Forest Service also will 
testify later that there has been a very active--there is a 
formal decision process with full public involvement when 
closing airstrips. Has there been and do your pilots feel there 
has been adequate public involvement in these decisions?
    Mr. Durtschi. No, not at all. As I mentioned, the logs were 
drug with heavy equipment at the Dolores Point Strip with 
absolutely no notice, no public involvement whatsoever.
    Mr. Duncan. You say there is no public involvement 
whatsoever?
    Mr. Durtschi. Not on that particular case. There was an EIS 
and a full-blown Environmental Impact Statement at the Taylor 
Landing Strip. That EIS found no significant impact and then 
the supervisor at the BLM office mandated this strip was closed 
with no other rational other than he did not want to sacrifice 
the sage brush, so that there was some public involvement 
there.
    Mr. Duncan. Well, let me ask the panel this. The 
Administration tells us that these landing strips are primarily 
intended for the agency's use and not for the public's use. If 
an agency no longer needs these strips, do you think it is fair 
to ask them to pay to maintain them or does anyone on the panel 
feel that it would be fair to ask the general aviation pilot 
community or the state aviation agencies involved to pay fees 
or some of the cost to help the government defray the cost of 
upkeep on these strips? What do you say in that regard, Mr. 
Boyer?
    Mr. Boyer. Well, Mr. Chairman, the pilots are already, as 
you have heard, doing a lot to maintain these strips. I think 
we should, based on the videotaped example, remind everyone 
that the maintenance of these strips is certainly not like the 
maintenance of normal concrete/asphalt runways. Getting these 
ready at the beginning of the season, keeping them clean is 
just an ongoing effort that pilots do when they use them, and 
then perhaps a shut down at the beginning of the fall or winter 
season is all that is required on these airports. And in many 
cases, volunteer organizations are doing it now.
    In addition, I think that with the passage of this Act, a 
lot more attention could be brought to assisting in that 
manner. In terms of any fees to use these airports, the same 
way that when we drove to Yellowstone, we paid a fairly 
substantial fee to enter the park, probably could be done, and 
there are those of us, as you have heard, with the passion to 
use them. But the efficiency of collecting such fees probably 
would not amount to the few aircraft that are going to use 
them, and we would have another government program collecting 
money, and it would cost more to collect it. But there are a 
lot of local solutions to the maintenance problem that you 
bring up.
    And then in terms of our national transportation system, 
where these airports do provide--and I would cite Mt. McKinley 
as a good example, a safe harbor for an airplane that is in 
trouble--there may be a way to look at the use of AIP funding 
in terms of keeping a certain number of these up and our 
association would lobby heavily in that regard.
    Mr. Duncan. My time is up, but let me just--I may have 
missed this, but let me very quickly ask you. Mr. Boyer 
mentioned that California and other states are involved in this 
also in addition to Utah, Idaho and several others. Maybe I 
missed this, but did somebody say how many back country 
airstrips we are talking about in total? Does anybody know the 
exact number?
    Mr. Welsh. Mr. Chairman, I can answer your question as no, 
I do not believe we do. But in Idaho, we have some fifty 
different strips, and they arrange in a variety of skilled and 
aircraft needed to get into some of them and so forth, but the 
maintenance is in few cases not a problem. We typically 
cooperate with the Forest Service and set up a work party on a 
particular weekend. And they have their staff there that can 
direct and lead, and we can get, easily, volunteer pilots to 
come in and do the physical labor. That is a cooperative system 
that has been in place for years, and years, and years, working 
very well.
    As Mr. Boyer points out, these are not strips that need to 
be asphalted every 2 years or something, and the users of them 
all have the best interest of the airstrip in mind. And so when 
I go in with my aircraft into one of these strips, I generally 
walk the strip, and look for rocks, and if there are little 
bushes or something that are in the way, and every other pilot 
does the same thing. So these are strips that periodically do 
need major maintenance, and we schedule that kind of work. We 
do it, but it is not something that is an ongoing financial 
crisis.
    Mr. Duncan. Well, that is a good system. I wish we had more 
cooperation between the private sector and government agencies 
throughout the Federal Government. Thank you very much.
    Mr. Hansen. The gentleman from Iowa, Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman. I suppose in 
fairness, I should tell you that maybe I should be sitting at 
the other table, because I associate myself with the remarks 
and so on. I confess I am an airplane owner/operator and a 
member of the AOPA. But I just want to emphasize some points.
    We spend a lot of money, those of us that fly and people we 
fly with. At least, I feel like we do every time I pull up to 
the gas pump, and the taxes are involved, and we are willing to 
do that for the maintenance of things of this nature. I do not 
know if any of you have ever been a small aircraft flying 
situation. We all understand if the engine fails, you have got 
to get on the ground. They are going to become gliders, as was 
already said. But you know, you get a kind of a funny feeling 
when you have got a little rough engine, too.
    And one thing that we train pilots from the beginning is 
you are always conscious of where you go in case you have a 
problem. And if you do not have access to these strips, and we 
all understand what the strips are in areas like this. It would 
be taking a lot away in the sense of safety and just good old 
common sense, it seems to me. So I associate myself with the 
remarks of our panel and would hope that we would begin using a 
liberal application of common sense here, and I think we will 
do the right thing.
    Mr. Hansen. I appreciate the gentleman's comments. The 
gentleman from Iowa, Mr, Simpson.
    Mr. Simpson. Thank you, Mr. Chairman. I appreciate the 
panel's comments, too, and I appreciate the fact that these 
back country strips are there for safety purposes as much as 
anything. And when I took my flying lessons, I knew that when 
you flew across Idaho, you, generally, were not flying across 
very much flat ground. And so I knew where every piece of flat 
land was plus everyone of these back country airstrips, and it 
provided a great deal of satisfaction to me to know that they 
were there.
    I guess the one question I would have is that you mentioned 
that sometimes the airline pilot association or groups, these 
people will take over the maintenance of some of these 
airports. Who takes over in that situation, who is responsible 
for the liability if something were to happen, if an accident 
or something were to happen in that case? Would it be the 
Federal Government whose land this is on or the private people 
who have taken over the maintenance of them, or the state, or 
who? I will ask that of anyone who would like to answer.
    Mr. Welsh. Mr. Simpson, I am not sure I have the answer to 
it either. I know the State of Idaho, as you know, we own 30 
airports, and I do not think there is any way to get out of the 
liability when you are the owner. Although, we do not have 
lawsuits. It just does not happen. Now, I suppose it could 
happen. I think only of one incident where we had an aircraft 
damaged that the owner felt that it was our fault. We had a 
chuckhole in the area and his airplane fell in that chuckhole 
and damaged it rather substantially. Fortunately, he was 
taxiing, he was not landing or taking off. We agreed with him 
and we paid for it. But it is simply these--it does not seem to 
be any kind of a groundswell effort to sue people over back 
country airstrips.
    Mr. Simpson. Would it be true to say that most of the 
people who fly into these back country airstrips realize that 
sometimes these are not going to be in the greatest of shape 
and, therefore, they take precautions to make sure when they 
have been maintained and so forth?
    Mr. Welsh. I think that is absolutely right. We do run as a 
state activity, training programs for people, on how to fly 
safely in the back country. We encourage anyone to come back in 
there to go through those training programs. The records that 
we have kept is that we have an outstanding safety record of 
those people that have done that. The unfortunate part is that 
people who have some difficulties back there, tend to be people 
coming from other states, have not had the training, and will 
get into difficulties.
    Mr. Simpson. Mr. Boyer.
    Mr. Boyer. Well, I was going to mention that I was not 
flying the plane that I had in that videotape, because I am not 
trained for that, and it is a unique experience, as you well 
know, going into some of these airports. As a pilot of almost 
5,000 hours, I will hold my breath on that approach to that 
airport.
    Your question about lability is a good one, so I think we 
are dealing with very trained pilots, mainly, going into these 
places. The second thing is, in cases of emergency, let us say, 
in a liability, the only other place is, as you mentioned, 
probably the road that you spotted down there. And there is 
going to be a question there if somebody gets a lawyer and 
wants to really go to work on the owner there, too.
    Mr. Simpson. Thank you.
    Mr. Durtschi. Could I address how we handled that on one 
airstrip in Utah?
    Mr. Simpson. Yes.
    Mr. Durtschi. The BLM issued a commercial right of way on 
the landing field at Mineral Canyon to two operators, Redtail 
Aviation out of Moab and Mountain Flying Service out of 
Monticello. These operators jointly maintain a liability 
insurance policy in order to use that strip commercially. The 
back country group is named as the airport manager, and we are 
responsible for the ongoing maintenance and upkeep of the 
landing strip. But those two entities that wish to use the 
strip commercially to haul rafters in, maintain a liability 
insurance policy that names the Federal Government as the 
insured.
    Mr. Simpson. Thank you.
    Mr. Hansen. The gentleman from Illinois, Mr. Lipinski.
    Mr. Lipinski. Thank you very much. Well, Phil, as soon as I 
saw that videobox there, I knew you had another video to show 
us. Your testimony at a hearing would not be complete without 
your monitor. It is amazing the places you manage to be at just 
the appropriate time.
    Can anybody on the panel answer a question for me, what 
standards do you expect these strips to be kept up to? In 
reading over the bill, I cannot really ascertain what standards 
we are going to, you know, expect these fields to be in. Can 
anybody answer that question for me?
    Mr. Barrett. I think that the standard that these airstrips 
need to be maintained to is whatever it takes for the pilot to 
be able to land safely and take off safely. And in most cases, 
it does not mean meeting a particular length and breadth of 
runway or safety areas, that it simply is up to the pilot to 
decide whether that airstrip is up to the standards that meet 
his aircraft, and his experience and skills. In Utah, we mark 
these strips on the chart as for emergency use. But that does 
not prohibit people from using them on a more frequent basis, 
or intentional basis, if they have the skills and the right 
kind of equipment to do so.
    Mr. Lipinski. But do not you think with, now, passing the 
bill and formalizing this, and putting the Forest Service--I 
will not say, in charge, but at least having the ultimate 
responsibility for these strips, do not you think that we are 
going to have to set some kind of standards at least? You are 
shaking your head no.
    Mr. Durtschi. No. Each of these landing strips stands on 
its own merits, just as Bob said. A fellow by the name of 
Gayland Hassleman wrote and published the bible on the idea of 
back country landing strips. In that book, he has a photograph 
of each strip, what he calls an RHI, Runway Hazard Index. He 
talks about egress, go around potential length of the strip, 
and has a little formula. Each landing strip has a number that 
he has come up with. That is his subjective--that is how he has 
it.
    Mr. Lipinski. You are saying that he has written a book on 
all of these landing strips?
    Mr. Durtschi. The ones in Idaho, yes.
    Mr. Lipinski. Oh, the ones in Idaho. OK. Because I thought 
maybe you might be the man to ask the question, how many strips 
does this legislation cover, because no one seems to be able to 
give us an answer on that.
    Mr. Durtschi. I can tell you what that is in Utah. We have 
identified about a dozen.
    Mr. Lipinski. There is a dozen in Utah. How many in Idaho?
    Mr. Welsh. We believe there are around 50, and the reason I 
am a little vague with you is there are strips back there that 
are owned by private individuals that we do not have anything 
to do with, but they exist back there. But there are around 50 
strips that can be accessed this way.
    I might add on the maintenance, that there are often times 
we think of an airport, the maintenance has to do with the 
landing surface. But in back country strips, there is another 
hazard, and that is the shrubbery and greenery growing up 
around it. And so we work to keep that clear so the approach 
can be safe and so forth on that. So it is a little more than 
just the dirt. Obviously, there is winter erosion that needs to 
be taken care of and that kind of stuff.
    Mr. Lipinski. Philip, you were going to say something?
    Mr. Boyer. Yes. I think we will take that as an IOU, 
Congressman. We will provide you, from our national data base, 
the number of airports that are covered by this legislation.
    Mr. Lipinski. Now, Phil, wait a second. These are 
airstrips, they are not airports. Correct?
    Mr. Boyer. This is the back country airstrips that, we will 
provide you a number that matches the 50 in Idaho, the ones 
that were mentioned by others, but we will do it on a national 
basis.
    Mr. Lipinski. That would really be very helpful, and I 
think everyone needs to know exactly what this legislation is 
going to cover as far as strips. I understand that in Idaho you 
have similar state legislation to 3661. Is that correct?
    Mr. Welsh. That is correct.
    Mr. Lipinski. How do you determine, because there was 
testimony here earlier about a strip that existed in the 
1930's, and maybe into the 1940's, and that it was overgrown. 
And then in the 1990's, you decided to, you know, reclaim it 
from the wilderness. How do you make a determination on, you 
know, what you are going to reclaim, what you are going to stop 
and be throwing back to the wilderness, and what you are going 
to allow to go back in the wilderness. Do you have any criteria 
for that?
    Mr. Welsh. There is no specific criteria on that, but when 
the Act came in, it specified that the existing strips would 
remain in place, and that is what we use, were they in 
existence when the Act came in. And the Wilson Bar Strip that I 
mentioned earlier was in existence. And so therefore, when we 
got down into working with the Forest Service, it became 
obvious, it existed before even though it had had some 
difficulties in terms of overgrowth; it was not being used as 
often. It did qualify, therefore, we cooperated, we 
straightened it out, we put it back in service. There are no 
strips coming back in that were not in service at the time of 
the Act coming in. This Act, as proposed, is the same language 
we have and is to preserve what exists today.
    Mr. Lipinski. Mr. Chairman, would you indulge me just for 
30 seconds more? I see my time is----
    Mr. Hansen. The gentleman is recognized.
    Mr. Lipinski. Are there situations where if the plane lands 
in an area one time, that you wind up designating that, you 
know, as an official airstrip and you keep it in operation 
after that? I mean, it seems like in reading the bill, the 
potential exists that if Phil is out there flying around with 
his video camera and he sees an area that could be a good spot 
for an airstrip, he will decide to go down there and land there 
so he can go back and say this is an airstrip, we have got to 
keep it open. I mean, how many times do you have to land, or 
how many times does it have to be an airstrip before, you know, 
this legislation is going to cause it to be kept in perpetuity?
    Mr. Welsh. I happen to be one of the trained pilots, and I 
train people how to do this and so forth. And I can say pretty 
safely, in the State of Idaho, all the appropriate places to 
land aircraft are now strips. There are not a lot of other 
places. And as I taken my students around, I make sure that 
they have the mark on their chart right where they are. There 
are some riverbanks and so forth, you can do as we call one 
landing, but we kind of like to use the airplane again and so I 
do not believe that is an ongoing problem at this point.
    Mr. Lipinski. All right. Thank you very much. Mr. Chairman, 
thank you for the time.
    Mr. Hansen. Thank you. The gentleman from Pennsylvania, Mr. 
Sherwood.
    Mr. Sherwood. Listening to this discussion, it sounds to me 
that you are asking us to help you preserve the status quo. You 
are not asking for any new strips, you are not asking for any 
exotic maintenance, and the liability deal is a little bit like 
if I decide I am going rafting on a river, the Federal 
Government owns the river, but I have to use my own good 
judgment. They are not certifying it is safe. So what I would 
think is what you said about you will give us an IOU on an 
inventory. I would think that would be pretty important because 
if there is an inventory, then you know what the status quo is 
to preserve. And it would eliminate the issue that was just 
raised about using this as an excuse to create new strips.
    And the issues that we are trying to balance are your 
rights to aviation and your rights to enjoy the back country 
with what other people think might be a little intrusive. And 
so it seems to me the policy of the country is not to build 
more use, but you are asking us to institutionalize what you 
have had, and that seems sort of reasonable to me.
    Mr. Welsh. I think it is reasonable to us, too.
    Mr. Hansen. The gentlelady from California.
    Ms. Napolitano. Thank you, Mr. Chairman. Mr. Boyer, how 
many landing strips does H.R. 3661 cover?
    Mr. Boyer. Well, I think we just talked about that. I do 
not think we have an accurate number, and that is the IOU I 
promised the committees.
    Ms. Napolitano. I am sorry. I must have stepped out a 
minute.
    Mr. Boyer. That, I would provide, yes. I think that is a 
good--we have it by some of the states represented here, 
probably Idaho being the most robust in terms of these strips, 
but we will provide the committee with those.
    Ms. Napolitano. Have you had any problems identified with 
any illegal operations?
    Mr. Welsh. We have not in Idaho. Again, these are very, 
very rural remote areas, and it does not lend itself to a drop-
off place to pick up anything, something like that. You can 
only get in there one way and get back out the same way. So it 
does not lend itself--we have not had, to my knowledge, any 
difficulty like that.
    Ms. Napolitano. Is there a specific reason why the 
environmentalists or the activists want them closed other than 
the noise factor?
    Mr. Welsh. I have to simply share my opinion, and I think 
that as we work with them, there is a general tendency to want 
to keep out any mechanized piece of equipment, and aircraft is 
obviously mechanized, that the feeling is that there is 
something more pure, or more kosher, or more something if one 
walks in there, looks at the beauty of our state, it is better 
than if one flies in there, that sort of thing. It is a general 
feeling that this is intrusive in that way.
    Ms. Napolitano. But the intrusion is limited to the 
airfield, the landing strip. You are not necessarily making new 
roads or trying to encroach further into the pristine area. Is 
that right?
    Mr. Welsh. No. We have done some observation with pilots 
over the years, and to be absolutely honest, pilots are kind of 
lazy, and they tend to camp right next to the airplane. They do 
not tend to march five miles into the woods. And so we find 
that there is very little movement away from the airstrip 
itself. It just is there, it is just a place to go. There are 
some of our strips, we have developed with campgrounds around 
them and fire rings, those kinds of things. Some are in areas 
that is not permitted, and they are not there. But it does not 
seem to be any movement from there beyond, nor do we have any 
interest to build roads or make them.
    We have one strip that we are quite proud of, and I have 
never actually measured this, but I am told it is 50 miles from 
the nearest four-wheel drive road, and that is a very remote 
strip, and we are very glad it is remote. And you can believe 
me there, and you can even watch game and moose and walk 
through the area in total silence. It is very, very nice. And 
the only way you get there is a long, long walk or by aircraft.
    Ms. Napolitano. Now, given the inaccessible areas maybe 
even the seasons, would you say that a lot of these are not 
available during the winter, or the rains, or--I guess what I 
am trying to get is the usage versus the perceived, or at least 
what I can read, encroachment.
    Mr. Boyer. I would definitely say you are absolutely 
correct. There are no snow plowing facilities and most of these 
are in areas that there is snow. They are really late spring 
and, obviously, damp weather is going to prohibit the use of 
those strips that are not paved. So in many cases these are 
fair weather operations during late spring, summer, early fall.
    Mr. Barrett. And strictly daylight operations for the most 
part also. It would be impossible to get in and out with no 
lighting facilities.
    Ms. Napolitano. So there is no way that you can put any 
jeopardy on the landing strip by attaching fire to the brush 
around it?
    Mr. Welsh. No. There is no big fire danger with them at 
all. I would be remiss if I did not add one program that we are 
very proud of, and we call that Access to Wilderness, where we 
fly in physically handicapped adults and children back into 
some of our strips. We have volunteer pilots that do that and 
it is an exciting day. They pick up people in wheelchairs and 
put them in airplanes and take them some place that there is 
simply no other way they could get there. So we are delighted 
with that program.
    Ms. Napolitano. Do you have any capping on the number of 
flights that any particular airfield might have during a given 
day?
    Mr. Welsh. This is something that we in the State of Idaho 
are working on very hard to try to identify. We are working 
with a person developing a piece of equipment to try to do 
that, because we would like to know the answer to that also. 
Some of the strips are real obvious, and we have four of our 
strips that, state-owned strips, that we have staff there 
during the summertime to help people and so forth. And they, 
obviously, can count the number of airplanes that come in and 
out.
    We have one particular strip we do not own, but it will 
be--that is used a lot for access for floaters, and there are 
people there, and we have pretty good numbers on that one. The 
other strips, we do not. And we do a lot of estimates on that, 
and most of our estimates run anywhere from one to two flights 
a week to one to two flights a day. These are not heavily used 
strips.
    Ms. Napolitano. Would you kindly just when you make a 
report to this committee in regard to the number of airfields, 
would you make some notes of some of the more used strips?
    Mr. Welsh. I would be glad to provide that, but with the 
recognition that we are struggling with that ourselves.
    Mrs. Napolitano. Right. Thank you.
    Mr. Hansen. The gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman, and let me 
say that I certainly applaud you at this effort on this 
legislation. And I join these gentlemen here at the table as 
well in their support of this legislation.
    As someone who probably has as much time in an airplane as 
anyone here with nearly 22,000 hours flying time, both as a 
private pilot instructor, as a commercial pilot, as a military 
pilot, I truly find the significance and the importance of 
these small unimproved landing airstrips in the district that I 
represent to be incredibly important. The Second Congressional 
District of Nevada is about 600 miles wide by about 800 miles 
long. It is very difficult to access by car without taking 
several days to reverse it. And often times we have used 
airplanes and found very comforting the fact that there are 
emergency landing strips, little areas that we would have 
access to.
    And most of the time we focus on the fact that these are 
emergency landing strips for airplanes that are in distress 
when, in fact, often times in the district that I have the 
great fortune to represent, these strips are access for 
emergency services to be provided to the communities or to the 
residents within the local area. It is not unusual to find a 
ranch or a homestead somewhere in these rural areas that may be 
four or 5 hours by vehicle from the nearest medical center; in 
other words, a car. An injury to someone on one of these rural 
ranches often times requires either someone to fly there to 
provide a medical service or for them to fly out if they are 
going to even save the life of that individual. So the small 
rural strips can be ``lifesaving'' to the people on the ground 
who depend upon them as well as to pilots in the air who may 
inadvertently have the unfortunate problem of having something 
go wrong with the aircraft.
    My question probably is--my concern is going to go more to 
the next panel--but I wanted to talk to somebody about--and 
maybe you can talk to me here--about the Dolores Point Landing 
Strip. Now, is that in Utah?
    Mr. Durtschi. No. It is actually in Colorado. It is along--
it overlooks the Dolores River, about a half-mile inside 
Colorado.
    Mr. Gibbons. OK. My concern is that it is a longstanding, 
long used rural airstrip, that without warning the Bureau of 
Land Management used heavy machinery to drag logs onto the 
strip. Now, if I were a pilot who may have realized or not 
realized that I was going to need that strip, and had relied on 
the fact, not knowing that the BLM had intentionally destroyed 
access to that strip, had an emergency and eventually chose 
that strip from the air, being unable to make any other 
determination or fly anywhere else--after all, in some of these 
places you have to be in outer space if you want to go between 
paved runways, if you have got a glide ratio that will permit.
    But if I had used this strip without adequate notice, 
without a note being placed by the government that they dragged 
logs across it and closed it, let me say that I do believe the 
liability would go to the Federal Government for intentionally 
destroying access to one of these strips. I would ask any of 
you gentlemen if you would feel the same way, or if notice 
should have been published, and if this is something that is 
going to be a continual problem with the government in their 
arrogance even to the laws that we have passed, mandating some 
of these airports remain open.
    Mr. Boyer. Well, I think once again, the Act providing some 
Federal aviation administration oversight, which is where this 
belonged, is critical. We have a charting process of every 6 
months or sectional charge, the state's publish charts on them, 
some of the states on an annual basis, others infrequently. And 
the problem is some of these things that you are talking about 
occur in between the charting cycles and, therefore, even with 
a chart in hand that shows an emergency strip, the actual thing 
that you talked about could have happened.
    And I provided in my written testimony, we have a letter 
from a member in Bend, Oregon, who cited support of the bill 
for the very reason you said. He is a member of the Civil Air 
Patrol, Search and Rescue. Two hikers were lost. Now, yes, they 
could have gone some distance away, obtained a helicopter, 
gotten into the strip, but that would have been a very time-
consuming situation. With the airstrip handy, these people 
which, fortunately, were found, was a critical factor in 
rescuing somebody who had nothing to do with the aviation 
recreation or business part.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    Mr. Hansen. I thank the gentleman. The gentleman from 
Minnesota, the ranking member of the full Transportation 
Committee, Mr. Oberstar.
    Mr. Oberstar. Thank you very much, Mr. Chairman. It is good 
to join you on the podium here to participate with you an issue 
of this significance. I have a few brief questions. Are all 
these landing strips approved by the Federal land manager?
    Mr. Welsh. No, they are not.
    Mr. Oberstar. Are any of them in trespass?
    Mr. Welsh. I am sorry. Say again?
    Mr. Oberstar. Are any of them in trespass; that is, they 
are not approved, then they are potentially in trespass on 
Federal lands.
    Mr. Welsh. Their location is approved in that case, but 
what I was using, a term or close to it, the approval, they do 
not meet the standards----
    Mr. Oberstar. I am not talking about standards. I am 
talking about the existence of the strip.
    Mr. Welsh. The existence of the strip is approved, yes.
    Mr. Oberstar. In each case?
    Mr. Welsh. In each case.
    Mr. Oberstar. Again, do you know of any where there is a 
strip that is used, that it has just been a customary strip 
used by aviators but not necessarily approved by Federal land 
managers?
    Mr. Durtschi. My understanding of the rules and 
regulations, at least in Utah, are that the BLM treats the 
airplane as any other off-road vehicle. As such, it has the 
right to use any road, any landing strip, be it little used or 
not, with impunity. In order to operate commercially from that 
strip; in other words, to bring people in and out for hire 
during tourist season, the BLM would request that the airplane 
owner acquire a right of way or a commercial lease on the 
landing strip.
    Mr. Oberstar. OK. I infer from previous exchange that there 
is no standard for determining, verifying, certifying the 
condition of those airstrips. Is that correct?
    Mr. Welsh. That is correct.
    Mr. Oberstar. How does an aviator know it is safe to land 
on any one of those? Just because it has been used?
    Mr. Welsh. I think it behooves an aviator in these strips, 
as any other airport in the nation, that I, as a pilot, have 
limitations on my skills and abilities. My aircraft has 
limitations on its abilities.
    Mr. Oberstar. Well, but that does not apply when you are 
flying into a paved general aviation airport or into a general 
aviation grass strip that has met the FAA standards or that is 
part of NPIAS use. None of these are part of the NPIAS use.
    Mr. Boyer. I think, Congressman, the FAR's cover that in 
terms of being a pilot. Familiarize yourself with all aspects 
of the flight you are embarking on. And an aspect of that 
flight is the airport that you are going to depart or land 
from, along with the weather and the other regulations. And so 
a pilot has to brief himself or herself on the particular 
parameters around that airport. I know the book that was 
referred to earlier with the pictures and the----
    Mr. Oberstar. But Phil, do aviators who are not residents--
I can understand that of natives of the state who are familiar 
with and use with some frequency those facilities. But if you 
are not from the state, if you are flying in, you have the 
understanding that there are grass strips, you can use them, 
how do you know? For you to familiarize--what do you use? What 
source of information do you use to know that this is a safe 
place to land?
    Mr. Boyer. Hundreds of these books are sold each year, 
normally, to people outside of the state. Normally, people who 
want to----
    Mr. Oberstar. These are all listed, all these strips are 
listed in this book?
    Mr. Boyer. They are listed, yes. And usually, parameters 
that are made up, and the Internet is providing us with----
    Mr. Oberstar. Can you give me one of those?
    Mr. Boyer. Yes, I would. I would love to give you the one 
from Idaho, which is a fantastic book.
    Mr. Oberstar. All of these strips are on Federal lands. Is 
that correct?
    Mr. Durtschi. No. Some are on state land.
    Mr. Oberstar. All of the strips covered by this pending 
legislation are on Federal lands?
    Mr. Durtschi. No. That is not correct. Some are on state, 
school trust lands in Utah.
    Mr. Oberstar. Why is there no differentiation in the 
legislation then?
    Mr. Durtschi. I do not see that there needs to be.
    Mr. Oberstar. Well, why should the state have a role in 
determining the status of an airstrip on Federal land?
    Mr. Barrett. Because the interest of the state in support 
of the flying public in that state is that those strips ought 
to be accessible by those pilots. If the BLM or the Forest 
Service wants to without warning----
    Mr. Oberstar. Does the state have any regulatory authority 
over those strips?
    Mr. Barrett. No, they do not.
    Mr. Oberstar. OK. Thank you.
    Mr. Hansen. The gentleman from Kansas, Mr. Moran.
    Mr. Moran. Mr. Chairman, thank you. I appreciate the 
opportunity of joining your committee. Are these airstrips, 
back country airstrips, shown on charts that pilots use. If you 
are flying across the country, you have got the chart that 
shows these airstrips as in existence?
    Mr. Welsh. Yes, they are.
    Mr. Moran. And is it generally local traffic that is 
utilizing these airstrips or would it be more likely that it is 
people who are flying cross-country--is there a 
differentiation?
    Mr. Barrett. Mostly, it is local, but we get requests 
frequently from people from out of state who want us to send a 
copy of our state aeronautical chart so that they can see where 
these landing strips are, whether it is because of emergency 
preparation or because they intend to land there, we do not 
know. But mostly, it is local people who use them, you know, 
from our state or a surrounding state.
    Mr. Moran. But does a pilot access the chart in what way? 
How do you get a chart if I am flying across Utah, I am a 
pilot, and I want to know where the strips are?
    Mr. Barrett. We get a lot of requests by e-mail, by 
telephone for them. We also distribute them through all of the 
airports, the public use airports in the state, and we make 
them available to anyone who wants one free of charge.
    Mr. Moran. Does the chart differentiate the quality of 
these airstrips? Is there some designation on the chart that 
describes the condition?
    Mr. Barrett. In Utah, the chart designates that they are 
primarily for emergency use, however, we have taken a number of 
them which have been specifically upgraded by the Back Country 
Pilots and brought up to a safer condition, we have indicated 
those in our airport directory and put considerably more 
detail.
    Mr. Moran. And are the efforts by Federal agencies to 
restrict or prohibit the use of these airstrips, is this a 
national policy that is being implemented or is it simply 
decisions made by Federal officials locally within their 
jurisdiction?
    Mr. Welsh. Our experience in Idaho has been local, that we 
have found some of the Forest Service personnel are pilots and 
they are simply on board with us right off the bat. There are 
others that simply take a total hard line on things and so our 
experience in Idaho has been a local thing.
    Mr. Barrett. Same thing in Utah. There seems to be a great 
deal of dissimilarity in the way that they administer from 
region to region.
    Mr. Moran. So the differentiation is based somewhat on the 
attitude of the local official in regard to this issue?
    Mr. Barrett. It may be that. It may be a condition upon the 
kind of resistance he is getting from others in that area as 
well.
    Mr. Moran. And the explanation by local officials as to why 
these strips should be closed is generally what?
    Mr. Barrett. Either disuse or environmental pressure are 
probably the two biggest ones that we experience.
    Mr. Moran. Mr. Chairman, thank you very much.
    Mr. Hansen. Thank you. The gentleman from Louisiana, Mr. 
Cooksey.
    Mr. Cooksey. Thank you, Mr. Chairman. I want to try to get 
back to determining exactly where this problem exists. Are most 
of these trips in the northwest states or the mountain states 
like Idaho? Could you give me a ballpark figure about how many 
strips are involved, you know, just a wild guess?
    Mr. Welsh. That request was asked earlier, and we have 
given you an IOU on that, but the number that we use in Idaho 
is 50. And that is not a hard number, because that is very 
difficult, and as silly as it sounds--what do you mean, you do 
not know how many there are--because there are privately owned 
ones and so forth, and what do you include?
    Mr. Cooksey. Does this problem exist elsewhere in the 
United States or is it just a problem that is unique to these 
states, because most of your state is owned by the Federal 
Government, Federal lands?
    Mr. Boyer. No. As I said, and I do not think you were here, 
Congressman Cooksey, from a national perspective, we see this 
mainly centered in the western states. Let us say seven western 
states to give you a ballpark, knowing that their number is 
probably most robust in any state. Let us say there are on 
average 25 times 7. But I cite an example in Alaska where this 
is beginning to occur. Once again, it tends to occur against 
some environmental pressure brought against the local 
management of the Federal agency. And then once again, we get 
into these knee-jerk reactions rather than an overall policy.
    Mr. Cooksey. OK. I am an environmentalist. I like to go 
into these areas. I have been in the wilderness areas where you 
can go in by foot or horseback, and I understand the argument 
for that. Fishing, that is my preoccupation. It is really 
better in Louisiana on the coast, but I like to go up in the 
mountains occasionally. But when people go in that are also 
environmentally concerned about it, when they get lost or have 
an injury, do most of them like to walk out, ride a horse out 
of there, or would they rather have a plane get them out, after 
they have been out of food for two or 3 days?
    Mr. Boyer. I think you answered that with the question.
    Mr. Cooksey. Another question. How do you get around most 
of the time, fixed wing or helicopter?
    Mr. Durtschi. In this case we are talking about fixed wing.
    Mr. Cooksey. But my question is what is the availability of 
helicopters? The availability of helicopters is small compared 
to fixed wing?
    Mr. Durtschi. Correct. And that is said in our testimony as 
a letter from a member that indicates to get a helicopter to 
this strip in Oregon would have been very difficult, time-
consuming--not to land the helicopter, but to locate one and 
get it there, plus the expense. There is a great deal of 
expense for that.
    Mr. Cooksey. As a Hughes wing pilot, I still do not trust 
helicopters because they have too many moving parts going in 
all directions.
    Mr. Durtschi. I have flown the Idaho wilderness for eight 
or 9 years, and I have yet to see a helicopter ever land.
    Mr. Cooksey. OK. Another personal question. There is a 
strip somewhere in Idaho that is off the middle fork of the 
Salmon that is actually a hunting place, and I went there 10 
years ago or more. And I know there was a big--the wreckage 
would be about half-way down, because on one side there was a 
210. On the other far end, there had just been a crash the 
previous year. Do you have any idea what the name of that ranch 
is? It is a pretty well known place.
    Mr. Durtschi. Thomas Creek, Pistol Creek, Mahoney Sulfur 
Creek, Flying B.
    Mr. Cooksey. That is it, that is all I need, Flying B.
    Mr. Durtschi. We would be glad to take you there.
    Mr. Cooksey. I have been there.
    Mr. Durtschi. We are leaving this afternoon.
    Mr. Cooksey. What kind of condition--why were those planes 
crashed there?
    Mr. Durtschi. Excuse me?
    Mr. Cooksey. Why were the planes crashed there? I know that 
you either flew in or you had a two-and-a-half day horseback 
ride. And I raise quarter horses, but it was still--flying was 
the better option. We insisted in going in a Beaver, which is a 
very good plane for that. Why were those planes crashed there?
    Mr. Durtschi. I would defer to Mr. Welsh on that.
    Mr. Welsh. I am not quite sure the particular incident you 
are talking about, but Flying B is an airport. It is on the 
middle fork of Salmon, and it is really accessible only by air, 
and it is a challenging strip. If the aircraft, or the pilot, 
or the weather conditions are not right, it is not something 
that I recommend to my students they fly into. It is simply 
challenging, and all of these strips have that limitation, and 
things do happen.
    Mr. Cooksey. Well, you have beautiful country up there and 
I really think we should do everything to preserve it, but 
aviation is not, you know, the 21st century. It is 20th century 
and it is here to stay. It saves lives and saves people that 
get lost.
    Mr. Welsh. In the first place, it involves flying people 
out of the B float trip, where the water got so dangerous that 
it was not safe, and the guy who pulled off at the B and said, 
who can fly these people out of here. So it can be a real 
lifesaver from another way.
    Mr. Cooksey. You can either save lives or save trees and 
animals. Thank you, Mr. Chairman. I am a physician so I would 
save lives.
    Mr. Hansen. I thank the gentleman. I hope the committee 
realizes, and as you look at this particular piece of 
legislation, you know, we cannot guarantee safety anywhere. 
Someone who is going to run a river, he has to take that risk. 
If someone is going to drive a four-wheeler out or an ATV, he 
takes a risk. The good pilot will pretty well figure out if it 
is safe before he lands.
    And I know I am not in the category like my friend with 
22,000 hours against my 500, but you take a few looks at a 
place before you put down, you know what you are getting into. 
And so I am just somewhat amazed that sometimes we worry about 
that. I mean, this is a certain responsibility comes to every 
person in American when they go on public ground or anywhere 
else.
    I would like to bring up this idea of maintenance. It 
seemed to be an issue with BLM and the Forest Service. I have 
been given to understand by talking to a lot of groups that 
they are more than happy to go in and do the maintenance that 
is necessary. I believe Mr. Durtschi brought that up at one 
time, as far as maybe cleaning up the airstrip, new tie-downs, 
windsock, things such as that to keep it going. And I 
complement you for doing that, and that is what we should have 
in America is this public participation. And I think, Mr. 
Boyer, your people are more than interested in doing things 
such as that.
    I really want to compliment this committee. I do not know 
of a better committee we could have with two people 
representing both Utah and Idaho, and Mr. Boyer, representing 
the AOPA, and Mr. Durtschi, who is a back country pilot. That 
is a good cross-section of experience.
    Now, let me respectfully just say something, no disrespect 
to anybody here, but do not worry, the Administration will 
oppose this bill. I mean, that is to be expected. I have served 
as the Chair of this committee for 6 years now, and I was 
counting up the other day, and I think there has only been five 
that they have not opposed. Most of them, we have a way of 
working it out, and bless their hearts, the BLM and the Forest 
Service, eventually, we come to a meeting of the minds. And so 
I do not mean to--do not be shocked when the next two gentlemen 
coming up vigorously oppose your bill and what you are 
interested in. That is to always be expected from this 
Administration.
    Because we have an access philosophy going on, whether it 
is ATV's, whether it is four-wheelers, whether it is river 
runners, whether it is pilots, or regardless of what it is, 
there are some people that have the opinion that access to the 
public grounds should be extremely, extremely curtailed. That 
does not seem to be the opinion of the American public, but I 
am just giving you mine. I am sure my colleagues here could 
debate that, but seeing as I have the mike and I am the last 
speaker here, I will say it anyway.
    With that, let me thank you for being here. We welcome you 
to stay. Thank you for your excellent presentation. This has 
been one of the more interesting hearings that we have had. And 
with that said, we will excuse you gentlemen and turn to the 
next one, which is Mr. Pat Shea, Deputy Assistant Secretary, 
Land and Minerals Management, Department of the Interior; Mr. 
David Alexander, Forest Supervisor of the Payette National 
Forest, Department of Agriculture.
    Thank you, gentlemen. We surely appreciate your attendance 
with us. You know the rules, you have been here before. Mr. 
Shea, we will turn to you, sir. Is your mike on?
    Mr. Shea. I would be happy to have Mr. Alexander, since he 
is more familiar with the forest and has been referred to 
several times, to give his specific testimony and then give the 
overview, if that would be all right with the Chair.
    Mr. Hansen. All of the testimony in its entirety will be 
included in the record without objection, and whatever you 
gentlemen want to say, we are more than interested in your 
testimony.

 STATEMENTS OF PAT SHEA, DEPUTY ASSISTANT SECRETARY, LAND AND 
MINERALS MANAGEMENT, DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY 
  DAVID ALEXANDER, FOREST SUPERVISOR OF THE PAYETTE NATIONAL 
               FOREST, DEPARTMENT OF AGRICULTURE

                  STATEMENT OF DAVID ALEXANDER

    Mr. Alexander. Mr. Chairman, I appreciate the opportunity 
to come here today and speak to you about H.R. 3661. I am David 
Alexander, the Forest Supervisor of Payette National Forest, 
and I am one of the four supervisors that are responsible for 
the management of the Frank Church River of No Return 
Wilderness. I have submitted, and I believe you have my full 
written testimony, so I am going to try and just summarize that 
briefly.
    Mr. Hansen. That will be fine.
    Mr. Alexander. The Forest Service is involved in many 
aspects of aviation, everything from our district people being 
out on airstrips working with volunteers from the aviation 
community to do maintenance through working with the Department 
of Defense to develop low level jet routes across the national 
forest for training. We work an awful lot with the outfitting 
and guiding association in Oregon and in other states, trying 
to make sure we are facilitating their businesses.
    I, personally, use back country airstrips a great deal 
myself, both for business and for recreation. I am not a pilot, 
but it is very reasonable to rent a plane, or to rent a pilot, 
go in and recreate, and I have done that a number of times. A 
lot of the back country airstrips in our national forest were 
developed, really, to service emergency landing points for 
early aviators, but they have evolved now to a point that 
primary users today are recreational pilots, outfitters and 
their planes, state and local governments; particularly, in 
regard to search and rescue organizations and, of course, land 
managers. We use those strips ourselves for administrative use.
    As has been made known earlier, we really do not know how 
many back country airstrips there are. It is very difficult to 
categorize it across the country. We know maybe a little bit 
more about it in forests like the Payette or in Idaho because 
of the management issues that we have had, but I have no idea 
how many there are nationwide on the national forest. But a lot 
of those airstrips are in the wilderness and, of course, the 
Forest Service has followed the Wilderness Act of 1964 in many 
cases, and a lot of airstrips in the wilderness, or designated 
wilderness, have been closed. There have been, however, some 
very notable exceptions, and one of those is the establishment 
of the Frank Church River of No Return Wilderness, where 
aviation use is specified as a valid use and where we manage 
those airstrips very carefully under the law, trying to follow 
congressional direction and intent.
    But the Administration does strongly oppose this bill, and 
to summarize, the main issues of opposition is, first of all, 
it takes the rules that are applied in the Frank Church River 
of No Return and somewhat expands those, and then applies them 
nationwide. My concern and the concern, I think, of the Forest 
Service is that a national policy is counter to our belief that 
these decisions can and should be made by professional land 
managers based on applicable laws and regulations, current 
resources, social conditions, and with full public involvement 
and the involvement of other agencies that are involved.
    We are concerned that this bill could result in mandating 
priorities for maintenance on airstrips in a very limited 
budget situation. We have very difficult problems with the 
budgets that we use to handle our facilities, and we are a 
little bit concerned that the bill could have us into a 
situation where we are mandated as to what we have to do. We 
are not arguing about the fact that we need to do maintenance, 
but to be mandated how much of that budget has got to go that 
way.
    The bill has some potential to effect land exchanges, and 
that is a concern to us. But I think, in summary, we recognize 
the importance of aviation in the back country. I do not think 
that is the issue here; at least, I hope not. I think we fully 
understand the importance of providing opportunities for those 
people who, physically, could not otherwise visit the back 
country. I think that we understand the importance, 
economically, if the air traffic or the air taxi business, and 
of the need for outfitters and guides, river rafters, hunters, 
hunting outfitters, to get their clients into the back country 
using these airstrips. I think that we realize that these 
airstrips are extremely important from emergency use by pilots 
and also for the health and safety of other wilderness and back 
country users.
    However, for some of the reasons that I mentioned above, 
the Administration strongly opposes the enactment of H.R. 3661. 
We believe our current policies provide adequate aircraft 
access with the appropriate local flexibility and public input. 
I would be pleased to answer any questions.
    [Prepared statement of Mr. Alexander follows:]

    [GRAPHIC] [TIFF OMITTED] T7552.020

    
    [GRAPHIC] [TIFF OMITTED] T7552.021
    
    [GRAPHIC] [TIFF OMITTED] T7552.022
    
    [GRAPHIC] [TIFF OMITTED] T7552.023
    
    [GRAPHIC] [TIFF OMITTED] T7552.024
    
    [GRAPHIC] [TIFF OMITTED] T7552.025
    
    [GRAPHIC] [TIFF OMITTED] T7552.026
    
    Mr. Hansen. Thank you, Mr. Alexander. Mr. Shea.

                     STATEMENT OF PAT SHEA

    Mr. Shea. Thank you, Mr. Chairman. As you know, over the 
last 30 years that you and I have been involved in politics, we 
have always found ways of working out solutions. Indeed, it was 
a couple of years ago that I was here on another hearing you 
chaired on the fair appraisal question for land exchanges. And 
I am pleased to announce to you, as you know, that we have 
established a very good working private/public partnership. I 
think that kind of dialog has been in the past quite 
constructive.
    I do have to say with 3661, however, we would be 
unalterably opposed to it because in an ironic way, it takes 
the local decisionmaking process that I would suggest, even 
with the testimony here today, has been working. It is not 
broken, it does not need to be fixed.
    To answer Congressman Gibbons question about the Dolores 
situation, we have made a call to the MOAB office. Their 
understanding is that that airstrip was not on BLM land, it was 
on private land. We are checking that further and we will 
submit something for the record that will give an answer. But 
there is a clear public process mentioned by the Utah pilot of 
the EIS requirement in Vernal, or out of the Vernal District 
office, reflects the ability of the public to participate in 
these decisionmaking questions.
    Now, I do think the questions related to conflicting uses, 
and one, Mr. Chairman, that I am sure you are very sympathetic 
to is the air borders that are essential for national defense 
in the desert of Utah. You begin encouraging the public to 
think that there are airstrips that they can use for 
recreational purposes, and you begin to have conflicts between 
the needed military use, or in Idaho, around Mountain Home, 
that is something that I think would be an unintended 
consequence of this legislation.
    Utah has had several instances where there have been drug 
planes that have landed on these strips, and even though they 
are remote, drug dealers are very creative in the ways they 
find transporting things. So I think having an unlimited sense 
of these airstrips can be put anyplace that the public provides 
they need to be would be in certain conflict.
    Where the conflict has arisen, in my judgment, has been 
where increased recreational use on the ground has begun to 
move into areas that, traditionally, could only be accessed 
either by horseback, by backpacking, or by air. And I will tell 
a personal experience on the Selway, the River of No Return 
Wilderness Area, where we floated for 5 days, Moose Creek, it 
is a major recreational airstrip. And I have to tell you, that 
it is very disconcerting to be floating down the river and all 
of a sudden have five or ten aircraft land in the middle of the 
area in an unanticipated way. It is not to say that it should 
not be there, but I think the BLM process and the Forest 
Service process which has been described allows for those 
conflicting uses to be resolved on the ground in the local 
area.
    And I would suggest to you in very strong terms that 3661 
is going to yank that decisionmaking out of the local area and 
impose a national standard. And given the number of times that 
I, as an Administration witness, or other witnesses for the 
Administration have been admonished by the Congress to keep 
decisionmaking at the local area, I think 3661 creates a 
certain conflict with that admonition.
    So just to leave the subject, we are concerned about how 
budgetary sources would be generated. California has estimated 
that we would have to spend $2,000 to $5,000 a year to maintain 
these strips. I think the uninformed flyer from the east coast, 
coming west, might assume that there was some type of Federal 
standard and decide to try to place their plane in a place that 
she was not trained to place it. And the accident that would 
result, the ranch in Idaho is a good example of how hazardous 
this type of flying is. And by allowing the kind of unlimited 
right to establish airstrips that I believe 3661 does, you are 
inviting future problems.
    So my final statement is I hope that we can keep a 
constructive dialog going on, that we maintain the kind of 
local or regional decisionmaking that FLIPNA requires be 
allowed to do or the National Forest Act requires the Forest 
Service to do, and not have some sort of Federal legislation 
that is one size fits all.
    [Prepared statement of Mr. Shea follows:]

    [GRAPHIC] [TIFF OMITTED] T7552.027
    
    [GRAPHIC] [TIFF OMITTED] T7552.028
    
    [GRAPHIC] [TIFF OMITTED] T7552.029
    
    [GRAPHIC] [TIFF OMITTED] T7552.030
    
    [GRAPHIC] [TIFF OMITTED] T7552.031
    
    Mr. Hansen. Thank you, Mr. Shea. Questions for the 
Administration, the gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman. I am 
somewhat perplexed by Mr. Shea's comments with regard to not 
wanting to establish a national policy on this area when, in 
fact, every time the Administration comes in here, they want a 
uniform standard national policy affecting the national forest. 
I would prefer that all decisions with regard to the treatment 
of our national forest or public lands be local. I appreciate 
your understanding and your concern about that. My confusion, 
of course, is that you believe this bill is going to create new 
airports. It does not; it merely establishes a process for the 
closure determination.
    And when it comes to terms of military conflicts, I, having 
spent twenty-some years in the military using low altitude 
corridors, know that those are fully published, they are 
identified, they are restricted in certain areas, both in terms 
of altitude and airspace. And in that publication, private 
pilots are very well aware of where they are, know what they 
are in use for. I do not find even at Mountain Home there to be 
a conflict as you may state.
    Now, my question to you, Mr. Shea, with regard to the 
Dolores Point Landing Strip, you said there was a consideration 
that it may have been private property. Did BLM spend any money 
for any resources or any time using machinery to drag logs onto 
the runway or any other item that would have been used to close 
the runway?
    Mr. Shea. Congressman, I will have to find that answer out 
for you and submit it to the committee.
    Mr. Gibbons. Would not they have had to come to you to use 
an expenditure to do that?
    Mr. Shea. They certainly would have had as part of their 
innovated land management plan to publish the action, and then 
had public comment on it as to how that particular land use was 
fitting into their new land management plan under FLIPNA.
    Mr. Gibbons. The Mexican Mountain Landing Strip, there is 
another one that has been used often times by the private 
sector, non-commercial sector. It is in a wilderness study area 
which was established after the runway was established there 
and used. You and your agencies are attempting to close it even 
though it has a preexisting and are required by law to leave it 
open. The law says to leave it open. Why are you pursuing 
action to close that strip?
    Mr. Shea. Again, Congressman, I will have to have the 
particular facts as relates to that airport. I would observe 
two things: Before an area can be a wilderness area, Congress 
has to act on it, and as they did with the Frank Church----
    Mr. Gibbons. Well, this is a wilderness study area, so you 
and I both know that that has no congressional requirement in 
it, although you treat it, defacto, as a wilderness area.
    Mr. Shea. And there is disagreement as to how we should 
handle that. The Administration, in my judgment, has quite 
correctly attempted to manage these as if they were wilderness 
areas so no damage would be done.
    Mr. Gibbons. But even though the law says that this runway 
should remain open, you want to close it.
    Mr. Shea. Well, again, I will have to find out the facts 
and get a letter to you on that.
    Mr. Gibbons. All right. Just for each of you, I want you to 
answer this question, if you will. Would you describe for me 
the environmental groups that have come to your agency asking 
for these airstrips to be closed and tell me what their 
rationale is when they approach you--you or your agency?
    Mr. Shea. To my knowledge, we have not received any 
requests from any environmental groups for a national act. I do 
think in the instances of----
    Mr. Gibbons. Would you check with your agency to find out--
--
    Mr. Shea. I will.
    Mr. Gibbons.--so that it is an agency approach as well?
    Mr. Shea. Fine. I will do that.
    Mr. Gibbons. How about the Forest Service?
    Mr. Alexander. I am not personally aware of requests to 
close airstrips, but I would need to get back to you on that. I 
can tell you that from the area that I manage, I have had no 
request of that type.
    Mr. Gibbons. OK. And if you would just make an inquiry into 
your agency and then report back to us the groups and the 
rationale for their request to you to close these airstrips?
    Mr. Alexander. All right, sir.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. The gentleman from Illinois, Mr. 
Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. Mr. Shea, Mr. 
Alexander, a state or a group of general aviation pilots want 
to keep an airstrip open at the present time. What is the 
process that they go through?
    Mr. Alexander. The process to keep an area open?
    Mr. Lipinski. Well, yes. I guess what I am saying is, if 
the Forest Service wants to close down one of these strips, not 
allow planes to land there, let it grow over, let it go back to 
the wilderness, what is the present course of action for a 
state or general aviation pilots?
    Mr. Alexander. Well, if the Forest Service were to do this, 
it is going to require a decision under the National 
Environmental Policy Act, which means that we are going to have 
to publicly state our intention, we are going to have to gather 
input from the public and from other interested agencies. So it 
is going to be well known what our intention is. We would have 
to consider a number of alternatives, including a no action 
alternative, which is to keep it open. By law, we need to do 
that.
    That is not, however, an issue that I deal with very much 
because for the most part, the airstrips that I deal with in 
Idaho are mandated by law to stay open. And so the discussions 
that we have are generally of a different nature there, 
concerning to what degree do we need to maintain and things of 
that nature.
    Mr. Lipinski. So there is a process available now that is a 
very public process?
    Mr. Alexander. Yes, sir.
    Mr. Lipinski. Do you have any idea what the cost would be 
if we were to enact this legislation on your various bureaus, 
departments?
    Mr. Alexander. I do not have, because it is in my mind a 
bit difficult to interpret. In other words, at this point in 
time, we do not have a maintenance requirement or a standard 
established on these airstrips that we are keeping open. We do 
try to work with various interest groups. We have great, great 
cooperation from voluntary workmen, like pilot associations and 
things of that nature. They do a tremendous amount of work.
    However, our maintenance needs are increasing, primarily, 
because these airstrips were designated about 20 years ago, and 
vegetation has been growing, and it is not just brush, it is 
timber. And we need to get in and start to do some things for 
approach and take-off needs to make those areas safe. Those may 
be significant in some cases. We are at the current time at the 
stage of having a drafted Environmental Impact Statement out as 
to how we want to manage the airstrips in Frank Church.
    And one of the things that we are proposing is the 
possibility of a group of individuals from the FAA, from the 
State of Idaho, from private pilot associations, along with the 
Forest Service, helping us to understand from each of those 
perspectives what needs to be done on each of those airstrips. 
We would like to prioritize those and apply our limited funds. 
We would like to have the latitude to do that on a local basis, 
taking all the factors into account, rather than having that 
specified as to what must be done every year.
    Mr. Lipinski. Do you have any idea how many strips this 
legislation would cover?
    Mr. Alexander. I do not, sir. I think Mr. Welsh gave you 
about as good an idea of Idaho and some of the areas as I 
could. I know that I manage 12 or 13 of them, and I would 
assume that, nationally, it may be in the hundreds. I would 
assume that, but I cannot substantiate that. I would be very 
interested, myself, in learning when the pilot's association 
comes forward with that number, I am going to be very 
interested.
    Mr. Lipinski. I am sure Phil will come up with the number, 
too. Is Mr. Bennett here from the FAA to answer some questions?
    Mr. Shea. We have a technical person here, yes.
    Mr. Hansen. Will you state your name for the record, 
please.
    Mr. Bennett. My name is David Bennett, Director of Airport 
Safety and Standards for the FAA.
    Mr. Lipinski. Mr. Bennett, do you have any idea how many 
strips we are talking about here?
    Mr. Bennett. No, I do not. These are completely outside of 
our system of airports.
    Mr. Lipinski. OK. Can you tell me what impact this 
legislation would have on the FAA?
    Mr. Bennett. The bill is a little vague. It involves us in 
the planning process for developing a national policy for 
approvals of either opening or closing strips. It is really not 
consistent with the program that we administer now. We are 
directed by law to provide a national plan of airports, a 
national system of airports that meet certain criteria that is 
published every year, entitled the ``National Plan on 
Integrated Airport Systems''. There are about 3,300 airports 
nation wide that are included .
    Mr. Lipinski. Now, those are airports that the FAA is 
responsible for?
    Mr. Bennett. Yes. We found that they have a significant 
importance to the system to make sure that we serve communities 
nationwide. Generally, if they are general aviation airports, 
they have at least ten based aircraft and they serve some 
community. So that is about 3,300 airports. There are a total 
of 18,000 airports in the U.S. Many of these are outside of 
that national system, being small private-owned airports. And 
from our point of view, these are considered privately owned 
airports.
    Mr. Lipinski. Now, would you run that by me just once 
again. I did not quite get all those numbers, or understand all 
those numbers. Would you start with what the FAA is responsible 
for and go through--I think you mentioned 18,000, was it?
    Mr. Bennett. Yes. Let me work from the 18,000 number back.
    Mr. Lipinski. I would appreciate that.
    Mr. Bennett. We think there is 18,000 airports.
    Mr. Lipinski. Or airstrips?
    Mr. Bennett. Yes, there are airstrips and airports of every 
kind in the U.S.
    Mr. Lipinski. OK.
    Mr. Bennett. Of those, a little over 5,000 are public use 
facilities. Some of them may be publicly owned, some of them 
may be privately owned, but they are open to public use. And 
they may include some of these strips which are now shown on 
the charts as open for public use. Within that number, about 
3,300 are in the FAA's National Plan of Integrated Airport 
Systems, and those are the only ones that we participate in the 
planning of or provide any Federal support to.
    Mr. Lipinski. Do you know if the FAA has a position on this 
piece of legislation?
    Mr. Bennett. We do not. We have not reviewed it or taken a 
position.
    Mr. Lipinski. You have not reviewed it at all?
    Mr. Bennett. Well, very briefly. We do not have an agency 
position on it.
    Mr. Lipinski. OK. Mr. Chairman, thank you.
    Mr. Hansen. I thank the gentleman. The gentleman from New 
Hampshire, Mr. Bass.
    Mr. Bass. Thank you very much, Mr. Chairman. I do apologize 
for being late, a minute or two late for this hearing, and I 
regret having missed some of the earlier testimony.
    It is my understanding that all this bill says is that if 
the Interior Agriculture Department considers the closure of an 
airstrip on Federal land, that they have to consult the FAA. 
Now, the FAA controls airspace, and they are charged with our 
nation's air system, and this bill in no way restricts your 
ability to close it. It just says you have to consult them. You 
do not even want to consult with anybody. Is that right?
    Mr. Shea. Well, I think the bill does not clearly 
articulate that consultative nature that you are now 
articulating. If you want to narrow it to that perspective, 
then, certainly, we would take a second look at it. But as it 
presently stands, there is no definition of landing strip, 
there is no definition of maintenance.
    Mr. Bass. But does not the BLM have a definition of landing 
strip? You guys know what a landing strip is. Do you not?
    Mr. Shea. No. We do not. Under FLIPNA, we do defer to local 
and regional plans for the integrated land management of that 
area as to whether or not they will allow that type of use in 
that area.
    Mr. Bass. Your regulations do not anywhere say the word, 
aircraft landing strip? Are you saying that?
    Mr. Shea. No. There are, certainly.
    Mr. Bass. And it is not defined anywhere, and BLM does not 
have any idea what a landing strip is or whether it is defined?
    Mr. Shea. I do not think I said that. I said there are 
regulations, they are interpreted by local district managers, 
generally after public consultation, as to appropriate local 
use for those areas.
    Mr. Bass. Are there any circumstances in which you would 
support a bill that would allow the FAA to play any role in the 
determination as to whether an airstrip even properly defined 
would remain open or closed?
    Mr. Shea. We presently consult with the FAA. In fact, in 
Idaho at Mountain Home, as we were going through 99606, which 
Congressman Gibbons is very familiar with, we had extensive 
consultations on an ongoing basis about keeping up an FAA 
airport that was in the middle of a military reservation.
    Mr. Bass. But you do not think there should be any----
    Mr. Shea. If I could finish? The record is very clear that 
the consultation with FAA goes on.
    Mr. Bass. On an Ad Hoc basis whenever the Interior 
Department or Agriculture Department wants to, but not----
    Mr. Shea. Or when the public says this is somebody we 
should consult.
    Mr. Bass. So your point is then that we do not need the 
legislation because the problem is taken care of anyway on an 
Ad Hoc basis?
    Mr. Shea. I said at the beginning of my statement, I think 
before you came in, that I was interested in finding a way to 
maintain the local decisionmaking process. And that often 
involves consultation with state aeronautic agencies, with 
Federal aviation agency, or the military reservations in nearby 
areas.
    Mr. Bass. The gentleman from the FAA, I take it the FAA is 
opposed to this bill?
    Mr. Bennett. We have taken no position on it.
    Mr. Bass. Are you willing to?
    Mr. Bennett. I do not think we have any plan to take a 
position on this legislation.
    Mr. Bass. It would be appreciative if you might be willing 
to bring this to the attention of Jane Garvey, Administrator 
Garvey, and ask her if she would be willing to write me a 
letter and tell me what she thinks about it.
    Mr. Bennett. I will do that.
    Mr. Bass. Thank you. Thank you, Mr. Chairman.
    Mr. Hansen. I thank the gentleman from New Hampshire. The 
gentleman from Nevada, do you have further questions?
    Mr. Gibbons. Well, only one. I would address Mr. Alexander 
with this. When the Forest Service has gone through this public 
process about determining closure of an airport, and there is a 
finding of no significant impact, or whatever, how many times 
has the Forest Service gone forward and closed an airport when 
there was a finding of no significant impact?
    Mr. Alexander. I am not aware of that on an national scale. 
I can localize it a bit, though. When we went through the 
process on Frank Church and developed a new plan, and it was 
under NEPA, there was language in the first draft that said 
that we think we ought to allow four of these airstrips to 
gradually close themselves because they are of marginal safety. 
That was an area of quite a bit of controversy in the aviation 
community. Their input has been noted and we have withdrawn 
that proposal.
    We have taken a step back and said that is not going to be 
the appropriate thing to do. The question now is, at what level 
are we going to keep them open and how much maintenance are we 
going to be doing? And that is an ongoing dialog. But we have 
taken the idea of either closing or allowing those strips to 
close through neglect, off the table, it is not appropriate.
    Mr. Gibbons. So how many times would you say the Forest 
Service has taken a no action?
    Mr. Alexander. I could not tell you that on a national 
scale, sir.
    Mr. Gibbons. The bill itself does not require you to create 
or actually maintain an airport without consideration for the 
existing surroundings. At what level of expense would you think 
that would take?
    Mr. Alexander. Well, the difficulties that we have in the 
language of the bill is assessing that. Now, understand that in 
my area, I am already required to involve the State of Idaho by 
law in any decisions we make regarding the wilderness. So the 
addition of the FAA in this Act increases that. But at this 
point, we are working on a very low-key level in determining 
that. We intend to raise the level of determination of what 
needs to be done at these airports. They are in Idaho--
airstrips, I should say--but I cannot project under the bill, 
under the language of the bill, what the cost might be.
    It appears that there is an opportunity there for the 
priority and the designation of maintenance work to be done in 
the consultation process, although, the cost would be ours. And 
ultimately, I think the liability of the airstrip is ours.
    Mr. Gibbons. At what level does safety play a role in your 
decision process?
    Mr. Alexander. A tremendous amount.
    Mr. Gibbons. Would you say it is the No. 1 considering 
factor?
    Mr. Alexander. I believe it is.
    Mr. Gibbons. All right. Now, if safety required that the 
runway be paved in your forest versus a dirt or gravel strip, 
would you dictate then that the runway be paved?
    Mr. Alexander. Experience has not shown that to be a 
consideration. We have been using these strips for probably 60 
years, maybe more.
    Mr. Gibbons. And 60 years has shown that many of these 
strips can be used safely. There is an incident or two on 
almost every airport, whether it is Chicago O'Hare or the 
Flying B, or whatever it is.
    Mr. Alexander. That is correct. I do not believe we are 
talking about being concerned with the fact that the 
maintenance levels would be dictated to be above and beyond 
what is reasonable. We have fatalities almost every year on my 
forest in aviation. I know Mr. Welsh could probably give you 
facts and figures about that more than I can. I have lost some 
close friends who were pilots back there, but it has not been 
from the safety of the airstrip. Generally, flying in 
mountainous conditions is just a hazardous business.
    Mr. Gibbons. Right. And in most of those occasions, the 
determination of air is rested with the pilot rather than the 
Forest Service.
    Mr. Alexander. Yes.
    Mr. Gibbons. If not every one of those occurrences. Is 
that----
    Mr. Alexander. Exactly. We fully understand that we do not 
have the responsibility of the determination of airspace. That 
is the FAA's business. What we are concerned with is providing 
for a safe landing strip that in and of itself does not provide 
a hazard to the aviation user.
    Mr. Gibbons. Some of those airports have been there for 60 
years, so there is a presumption that they have been used 
safely in the past and could be used safely in the future. 
Thank you, Mr. Chairman.
    Mr. Hansen. I thank the gentleman from New Hampshire, and I 
thank Mr. Shea and Mr. Alexander for being with us today and 
sharing your thoughts with us. And with that, we will stand 
adjourned.
    [Whereupon, at 12:01 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
